<html>
<title> - MANAGEMENT OF THE STATUE OF LIBERTY NATIONAL MONUMENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                           MANAGEMENT OF THE 
                           STATUE OF LIBERTY 
                           NATIONAL MONUMENT 

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                      Tuesday, September 18, 2007

                               __________

                           Serial No. 110-43

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

37-847 PDF                      WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















































                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Bobby Jindal, Louisiana
Dan Boren, Oklahoma                  Louie Gohmert, Texas
John P. Sarbanes, Maryland           Tom Cole, Oklahoma
George Miller, California            Rob Bishop, Utah
Edward J. Markey, Massachusetts      Bill Shuster, Pennsylvania
Peter A. DeFazio, Oregon             Dean Heller, Nevada
Maurice D. Hinchey, New York         Bill Sali, Idaho
Patrick J. Kennedy, Rhode Island     Doug Lamborn, Colorado
Ron Kind, Wisconsin                  Mary Fallin, Oklahoma
Lois Capps, California               Kevin McCarthy, California
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Dean Heller, Nevada
Lois Capps, California               Bill Sali, Idaho
Jay Inslee, Washington               Doug Lamborn, Colorado
Mark Udall, Colorado                 Don Young, Alaska, ex officio
Stephanie Herseth Sandlin, South     Kevin McCarthy, California
    Dakota                           Don Young, Alaska, ex officio
Heath Shuler, North Carolina
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                



























                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, September 18, 2007......................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Moyer, Monique, Executive Director, Port of San Francisco....    32
        Prepared statement of....................................    33
    Salerno, Marie, President and Co-Founder, National Parks of 
      New York Harbor Conservancy................................    36
        Prepared statement of....................................    37
    Sires, Hon. Albio, a Representative in Congress from the 
      State of New Jersey........................................     2
    Weiner, Hon. Anthony D., a Representative in Congress from 
      the State of New York......................................     4
    Wenk, Daniel N., Deputy Director, National Park Service, U.S. 
      Department of the Interior.................................    10
        Prepared statement of....................................    12

Additional materials supplied:
    Giraudo, Louis, Statement submitted for the record on behalf 
      of the San Francisco Fishermen's Wharf Restaurant 
      Association................................................    29


   OVERSIGHT HEARING ON MANAGEMENT OF THE STATUE OF LIBERTY NATIONAL 
                                MONUMENT

                              ----------                              


                      Tuesday, September 18, 2007

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m. in 
Room 1324, Longworth House Office Building. Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Christensen, 
Hinchey, Inslee, Brown, Gohmert, Cole, and McCarthy.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call the Subcommittee on National 
Parks, Forests and Public Lands to order. Our agenda today is 
an oversight hearing on the management of the Statue of Liberty 
Monument, and let me begin with an opening statement, and then 
our Ranking Member, Mr. Bishop, as well.
    The Statue of Liberty, as we all know, is a powerful symbol 
of America. The values it represents, the international 
cooperation, freedom, and our heritage as a nation of 
immigrants, are as relevant today as they ever were. The 
Congress and this Subcommittee in particular are eager to work 
with the National Park Service to ensure that icon of American 
freedom is protected, preserved and interpreted for future 
generations of Americans as well as those who may visit our 
shores.
    Concerns have been raised regarding two management issues 
at the monument. The first is the decision by the National Park 
Service to close the crown of the statue to the public. There 
appears to be some confusion as to whether this decision is 
based on security concerns in the wake of the 9/11 attacks or 
on more standard health and safety concerns, such as the lack 
of emergency exit. Hopefully today's hearing will provide 
further information on this issue.
    In addition, some have raised concerns regarding the 
recently awarded concessions contract for ferry service to the 
monument. We look forward to hearing from our witnesses 
regarding not only the new contract at the Statue of Liberty 
but also regarding the track record of the new concessionaire 
on all NPS sites.
    We would like to welcome our witnesses to this hearing and 
thank them for their time and effort in joining us. Your input 
would be invaluable as we consider the future of this national 
treasure.
    With that, let me turn to our Ranking Member, Mr. Bishop, 
for any comments he may have.
    [The prepared statement of Chairman Grijalva follows:]

          Statement of The Honorable Raul Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The Statue of Liberty is a powerful symbol of America. The values 
it represents--international cooperation, freedom and our heritage as a 
nation of immigrants--are as relevant today as ever.
    The Congress, and this Subcommittee in particular, are eager to 
work with the National Park Service to insure that this icon of 
American freedom is protected, preserved and interpreted for future 
generations of Americans as well as those who may visit our shores.
    Concerns have been raised regarding two management issues at the 
Monument. The first is the decision by the National Park Service to 
close the crown of the Statue to the public. There appears to be some 
confusion as to whether this decision is based on security concerns in 
the wake of the September 11 attacks, or on more standard health and 
safety concerns such as the lack of emergency exits. Hopefully, today's 
hearing will provide further information on this issue.
    In addition, some have raised concerns regarding the recently-
awarded concessions contract for ferry service to the Monument. We look 
forward to hearing from our witnesses regarding not only the new 
contract at the Statue of Liberty but also regarding the track record 
of the new concessioner at other NPS sites.
    We would like to welcome our witnesses to the hearing and thank 
them for their time and effort in joining us. Your input will be 
invaluable as we consider the future of this national treasure.
    With that, let me turn to the Ranking Member, Mr. Bishop, for any 
comments he may have.
                                 ______
                                 

  STATEMENT OF THE HONORABLE ROB BISHOP, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Bishop. I am happy to be here with the Chairman to talk 
about why the A PLUS Act should replace No Child Left Behind.
    [Laughter.]
    Mr. Bishop. Wrong hearing? That is what I want to talk 
about.
    No, we welcome you here. This is going to be an informative 
hearing on these issues, and I look forward to the testimony 
that is going to be provided.
    Mr. Grijalva. Thank you. Let me welcome our colleagues, 
distinguished colleagues. Congressman Sires from New Jersey, 
welcome, sir. Thank you for coming and your time. Congressman 
Weiner from New York. Thank you for your time. Let me begin 
with the gentleman from New Jersey for his opening comments. 
Mr. Sires.

  STATEMENT OF THE HONORABLE ALBIO SIRES, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Sires. Mr. Chairman, Members of the Committee, thank 
you for having me here today to talk about an issue that is 
very near to my heart. I appreciate your willingness to examine 
issues affecting the Statue of Liberty. I also want to thank 
Congressman Weiner for championing this issue.
    As you may know, I proudly represent the 13th District of 
New Jersey, which includes the Statue of Liberty. I know Mr. 
Weiner claims it is a New York landmark, but in truth, it 
belongs to New Jersey. Actually, I believe that the Statue of 
Liberty belongs to all Americans. It is a true symbol of our 
nation and it represents our freedoms and liberties.
    So, like so many of us, I vividly remember watching the 
Twin Towers burn on September 11. I will never forget that 
vision in my mind and how our nation grieved for those who had 
lost their lives. It was a symbolic blow to our nation's 
spirit. Today, six years since those attacks, we have recovered 
our spirit and America stands strong and proud again.
    An important part of the recovery is due to the fact that 
we are able to get back our lives. As then Secretary of the 
Interior, Ms. Gail Norton, said on September 12, 2001, at the 
Hoover Dam, and I quote, ``Even though atrocities such as those 
of September 11 can affect us, they cannot close us down.''
    However, former Secretary Norton was wrong about one of our 
national treasures. Today, the Statue of Liberty's crown is not 
yet open to the public. The statue is a symbol of freedom and 
democracy, and her crown should be reopened for all to visit.
    Why does the crown remain closed? I expect the National 
Park Service to argue it is a national security threat. I 
disagree. Congress has allocated more than $90 million for 
security upgrades. More than $6 million was raised by private 
sources to make improvement to the statue. Additionally, the 
Park Service has reopened the Washington Monument and the White 
House, other national treasures that are considered targets.
    By using the devices that the Park Service has already 
acquired for screening visitors to the Statue of Liberty, like 
bomb-sniffing dogs and bomb-detecting devices that blow air 
into the clothing and then check for particles of explosive 
residue, they can reopen the Statue of Liberty's crown to the 
public.
    The Park Service might also respond that the crown remains 
closed because it is not up to modern fire or building codes. 
If this is true, you might ask them what are they doing to 
repair the building. You might also ask what Congress can do to 
help rehabilitate the crown so it can be reopened. What can we 
do to provide the needed resources to reopen this national 
symbol?
    All visitors should have the opportunity to fully 
experience the statue when visiting this great symbol of 
freedom and be able to climb up those memorable stairs to the 
crown and stand on their tiptoes to enjoy the views of this 
country that she looks over and protects.
    We have not forgotten the tragic events that occurred six 
years ago, and we will never forget, but it is time to get back 
to enjoying the freedom we have here in America. It is time to 
fully reopen the symbol of liberty and do all we can to address 
any outstanding issue. I ask for your assistance in this 
endeavor.
    Let me add one last point. I invite all of you to my 
district to see the statue and to see what it means to the 
visitors. I am happy to help organize a field hearing at 
Liberty State Park so we can experience this great symbol. 
Please let me know if I can be of any assistance.
    I will end this by saying I am an immigrant. I came here at 
the age of 11, and I still remember those days when my mother 
and father and my brother went to the Statue of Liberty and we 
went all the way to the top of the crown. It was probably one 
of the most emotional and memorable experiences I have had 
being a young immigrant in this country and being able to go to 
the Statue of Liberty and visit and see what the statue 
represents. It is one of those sites that you, as an immigrant, 
look forward to seeing, especially in our area, and the other 
one, I may say, is the Empire State Building in Mr. Weiner's 
district.
    So I thank you for your time and I hope you consider this 
request. Thank you very much.
    Mr. Grijalva. Thank you very much, sir, and thank you for 
your comments and your testimony.
    Let me now turn to the gentleman from New York, whose 
persistence is admired by myself very much. Congressman, 
please.

STATEMENT OF THE HONORABLE ANTHONY D. WEINER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Mr. Weiner. Thank you very much, Mr. Chairman, Ranking 
Member, Members of the Committee.
    Mr. Chairman, you and the Committee have a great deal of 
work to do in taking a look at some of the issues that affect 
the Statue of Liberty. Recently, a few days ago, shortly before 
September 11, I did what no American has been able to do since 
September 11, 2001. I went up the cramped helix stairwell going 
up into the Statue of Liberty. It was tight, it was sweaty, it 
was cramped and it was thrilling. It was thrilling the same way 
a lot of us remember it was when we were kids, when our parents 
or our grandparents or older brother or sister gave us a boost 
up so you can see out of Lady Liberty's crown.
    Since September 11, every single one of the national parks 
that was closed on that fateful day has reopened, every single 
one except the one that overlooks Ground Zero. Every single 
monument is reopened. Every single park is reopened except the 
one that has ``Liberty'' in her name.
    Ladies and gentlemen, it is a scandal that it remains true 
to this day. It is not the fault of Congress. Congress has on 
at least two occasions said to the National Park Service, ``You 
need additional money? We will give it to you.'' At one point, 
this House in a bipartisan fashion said, ``We will put an 
additional $1 million in, even if you didn't ask for it, for 
security concerns.'' But this is not about a failure of money. 
This is about a failure of creativity and courage on the part 
of the National Park Service. But more than that, it is a bit 
of scandal.
    First, let us lay on the table and let us stipulate to the 
idea that the Statue of Liberty is closed today. Could you hand 
me that, Jonathan?
    This is open. You can walk into the park that was made and 
manufactured by the United States of America. This, Lady 
Liberty, and the gift from France that we all know so 
iconically is closed. If the National Park Service comes to you 
and says, ``Oh, but the Statue of Liberty is open; it is open 
exactly the way we said we would open it,'' they are not 
telling the truth.
    If you or I or any other American citizen would go in, this 
is about as high as we would be able to get. And if you think 
that that is not bad enough, let us remember the days, weeks 
and months immediately after September 11. We all remember the 
full-throated fundraising campaign that was waged to raise 
money to reopen Lady Liberty. We were all looking for things to 
do in those days, and one of the things we were told was that 
if you save your lids of your Folgers cans, if you buy 
something with your American Express card, you are going to 
give money that is going to reopen the Statue of Liberty.
    The Statue of Liberty Ellis Island Foundation lined up 
celebrities, lined up Robert DeNiro, lined up all kinds of 
folks to help them raise money, and raise money they did. In 
fact, the Statue of Liberty Foundation in 2004 raised $7 
million in contributions in dimes and nickels and dollars and 
cents; 2005, another $2.7 million; 2006, $1.7 million. And on 
the website, it didn't show the base of Lady Liberty. It showed 
her crown and her torch.
    Ladies and gentlemen of the Subcommittee, you have to find 
out where that money went. Someone collected that money, and 
where has it gone? Well, to some degree, the Inspector General 
of the Park Services answered that question. It went to bloated 
salaries for the Director. It went to expenses that had nothing 
to do with reopening the Statue of Liberty. It went to $45,000 
a year to hire a dog to chase away geese off the grounds of the 
Statue of Liberty.
    Putting aside the money that was raised for this purpose 
and not used for the purpose, putting aside the absence of 
creativity on the part of the National Park Service, this comes 
down to a question of whether we in Congress are going to 
finally ask the National Park Service to start to plan to 
reopen Lady Liberty's crown.
    They are not wrong that it is cramped in there. They are 
not wrong that I probably wouldn't go in there if I was 
overweight. They are not wrong that you should probably limit 
the number of people, or say you can't bring bags, so you have 
to register in advance and buy a special ticket, and we are 
only going to let 30 people go up, and we are only going to 
allow them to go in off-hours. But tell us something. Tell us 
why it is that here we are all these years later and there is 
one iconic park that remains closed since September 11.
    Now I have to tell you something. The National Park Service 
is an amazing institution, but I am not sure they are up to the 
task of figuring out how to solve this basic problem. We are 
never going to make that park 100 percent safe for 100 percent 
of visitors. But if you ask them when they sit here, ``Tell us 
how many evacuations you have had to do from Lady Liberty's 
crown in the last generations,'' they will have a tough time 
counting any more than their fingers on their hand.
    Is it safe for everyone to climb Devils Tower? Probably 
not. There are some crowded corners of this building here, but 
to keep Lady Liberty closed defies the will of the American 
people and in a way, we use this a great deal, it really does 
bow to the desires of the terrorists. If it had to be one park 
to keep closed, it should not be the Statue of Liberty.
    But if you are not animated by the psychic and spiritual 
reasons to reopen Lady Liberty, if you are not animated by the 
fact of what Congress said, if you are not animated by the fact 
that millions of people gave dollars to it, I am going to tell 
you there is a real economic impact as well.
    Tourism and therefore tax dollars from people visiting Lady 
Liberty is down. This is what it was in 2000. This is what it 
is in 2006. Now this is tourism in the rest of New York City. 
When the Park Service says, ``Oh, we find that our visitors 
love the experience,'' they probably do enjoy the experience. 
But this is the impact that we have seen since September 11--a 
rise in tourism in New York City, a surge of patriotism in our 
country, more people wanting to experience this iconic thing, 
and fewer and fewer are.
    So if you are not animated by the other things, we should 
be concerned about the visitor experience and making sure when 
they go there they have the experience they want.
    Now, before I yield, and I appreciate the Chairman letting 
me go over time, one of the things that the Park Service and my 
colleague mentions is say, well, we are not sure how to 
evacuate people from this narrow stairwell. Putting aside there 
is an emergency elevator, putting aside there are some landings 
that you can use, it is. It is cramped; it is tight. They have 
never asked anyone, ``Tell us how.'' All they have gone is to 
consultants to say, ``Tell us why not,'' and we all know that 
if you ask someone, ``Well, is it safe,'' the answer is 
probably going to be ``No, it is not 100 percent safe.'' We 
would probably like A, B or C.
    Perhaps what this committee should do is say to the Park 
Service, ``Come back to us with a plan on how you would make it 
as safe as possible.'' Is it you want a limit on the number 
that you sell? I am sure that all of us can agree that there is 
probably some reason.
    You want to have a sign like they have at the amusement 
parks? You have to be shorter than this and narrower than this, 
and you have to be one of the first 30 that sign up online so 
we can do a full security screen, whatever it takes. The 
security going into the island is the same, if not better, than 
we have at most airports. As my colleague mentioned, it has 
bomb detection and the like. But do not allow us to simply say 
we can't do it. We can't figure it out. I guess we are going to 
leave this park closed.
    Let me conclude with this thought. We should not be the 
last generation of Americans that gets to experience this park. 
We shouldn't be. It is just not right, and it should certainly 
not be September 11, 2001, as the excuse, as lame as it is, to 
be used by the Park Service to keep it closed. That should not 
be the hook that they use to do what they might have wanted to 
do for years and years and years, which is to close this park.
    We should not let this happen. We should all have the 
chance that our kids' kids and our kids' grandkids get to 
experience that walk to Lady Liberty's crown. Only then, and 
only when all the parks are reopened since September 11, will 
we truly be back on our feet, will we truly be expressing the 
ideals of the country and will we truly be doing the type of 
oversight and governance that this Congress should do, and I 
thank the Chairman.
    Mr. Grijalva. Thank you, Congressman. I have no questions 
for our colleagues. Let me turn to our Ranking Member, Mr. 
Bishop.
    Mr. Bishop. No. I appreciate the testimony of both of our 
colleagues that are here. I thank you very much. I have no 
questions.
    Mr. Grijalva. Mr. Brown?
    Mr. Brown. Mr. Chairman, if I might make a statement. I had 
the opportunity to walk up to the crown on September 8, 2001. I 
was in New York with my grandson. We were going to West Point 
for a visit, and we had dinner at the Windows on the World that 
Friday night and that Saturday, but the Windows of the World, 
you have such a great view of the statue. And so we took him 
over to Ellis Island, and he was 16 at the time, and it was a 
great experience. I know it is pretty cramped. It is a lot of 
people walking up those narrow steps. But the view from the 
crown is pretty exciting. Thank you for your testimony.
    Mr. Weiner. Let me just respond that I just got chills when 
you told me about that day because you were one of the last to 
go into Windows on the World. Let us hope you are not one of 
the last to go into the Statue of Liberty's crown.
    Mr. Grijalva. Ms. Christensen, any questions?
    Ms. Christensen. No, I have no questions. I just want to 
welcome our colleagues here and look forward to the rest of the 
testimony.
    Mr. Grijalva. Thank you. Sir, questions?
    Mr. Gohmert. Thank you, Mr. Chairman, and I do appreciate 
your efforts, and especially my friend from New York. We have 
been on the opposite side of some things in Judiciary, but I 
really appreciate your efforts here. I have not had that 
opportunity to go up before, and I am still hoping that because 
of your efforts and others, and hopefully what we will do, I 
will have that chance.
    I am curious. You brought up the $45,000 a year for a dog 
to chase geese. I am unfamiliar with the going rate in New 
York. Is that too much for a dog to chase geese in New York? I 
am not familiar with the going rate.
    Mr. Weiner. I would say to the gentleman from Texas, I 
would do it for much less. But there was an Inspector General's 
report that looked at the wasting of money and looked at a lot 
of other things about the management of the Statue of Liberty 
and found it wanting. But I think the biggest problem is just 
that the money was raised under false pretenses. The money was 
not raised to hire dogs to chase geese.
    Mr. Brown. Do you know what money is left?
    Mr. Weiner. Well, here is what the foundation has now, and 
the Park Service has backed them up and said, well, we needed 
the money for other elements of upkeep of the Statue of 
Liberty, so it was diverted to other things. It might have been 
very valuable, but American Express, for example, was so 
frustrated with the characterization of this as reopening the 
Statue of Liberty that they withdrew their support from the 
organization. They could not have been happy with the six-
figure salaries of the Executive Director of the organization.
    But the argument that is made by the Park Service and this 
foundation is, ``We never said we would open every inch of the 
crown. We said we would open Lady Liberty.'' And that is why I 
made the point at the beginning that none of it has yet been 
opened.
    Mr. Brown. Well, I appreciate those comments, and I do 
think it would behoove us to find out because I remember, like 
you said, when people poured out their hearts and their pockets 
under the context or ruse that we are going to open up the 
statue, and it was the crown that was the emphasis. So I hope 
we are able to help Mr. Weiner's efforts. Thank you all very 
much.
    Mr. Grijalva. Thank you, sir.
    Mr. Sires. Can I just add, even when the crown was open, 
not everybody chose to go all the way up to the crown? So it is 
not a question that everybody is going to go up to the crown. 
It is tight, it is hot, but the moment when you get up to this 
crown and you see what the Statue of Liberty stands for is 
beyond description. So I hope you consider this. Thank you.
    Mr. Gohmert. Mr. Chairman?
    Mr. Grijalva. Yes, sir.
    Mr. Gohmert. Can I have unanimous consent to ask a 
question? I don't know. Do we ever have waivers in a place like 
this for people to sign before they undertake something that 
may be risky? Does the Chairman know?
    Mr. Grijalva. We are going to have the witness from the 
Park Service coming up.
    Mr. Gohmert. Do you know?
    Mr. Grijalva. We will be in a position to ask them.
    Mr. Gohmert. All right. Thank you.
    Mr. Weiner. If I can speak out of order for one moment to 
say this, is that the ticket sales that go on and security that 
is done is all offsite at this point. I shouldn't say all 
offsite. But there is a system to allow people to purchase 
tickets online and to get them in advance of them getting 
there. And there is nothing stopping the Park Service from 
saying, ``If you choose ticket B rather than ticket A, here are 
the limitations, and you have to affirm that you are prepared 
to live up to them.''
    I can tell you something. If I wanted to strap on a harness 
and climb Devils Tower tomorrow, I doubt very much the Park 
Service would say, go ahead, knock yourself out. I mean, they 
probably have limitations.
    Mr. Grijalva. Perhaps after your testimony today they might 
say OK.
    [Laughter.]
    Mr. Grijalva. Mr. Inslee.
    Mr. Inslee. Thank you. I really appreciate you fellows' 
leadership on this, and the reason to me is a symbolic one. 
This is a great symbol for the country, and it does remind me a 
little bit of Franklin's quote, those who sacrificed a little 
liberty to get a little security deserve neither and will lose 
both, and I think that that applies to this situation. So I 
really appreciate your trying to prod a solution here.
    What I hear the Park Service, through you, saying is that 
there is risk associated. Maybe there is a little more risk 
going up these stairs than most stairs that we have in our 
Federal system. But I went up a ladder, I remember, up to go 
see a Kiva at the national park at, I think it is, is it 
Bandelier National Park in New Mexico, and it was kind of an 
old--it looked like kind of a Native American ladder. Maybe 
there was a little more risk going up that, but I think in our 
park system, risk is part of the experience, and in certain 
circumstances, the Devils Tower, when you go up Mount Rainier, 
you go up that ladder, there might be a little higher risk.
    Tell us, there has got to be a way to get a person down 
those stairs if you are going up. We do a lot of mountain 
rescue in Washington State, and we bring people down off 
cliffs, and there has just got to be a way to be able to do 
that. Isn't there some way to do that?
    Mr. Weiner. Well, look, I mean, the Park Service is going 
to be here. I can tell you what my experience is just having 
been there. It ain't easy. The fire department from New York 
City would be called, and they do difficult rescues all the 
time. It is basically a one-person-wide stairwell. There is a 
YouTube video that is up now with me doing it, and you can see 
how cramped it is. There are landings from place to place that 
if someone needs to you can sit someone down. There is an 
emergency elevator that is small but for a person to get them 
up and down. It is not easy. It is not going to be easy to do 
it.
    Now, if you ask the Park Service how frequently they have 
had to do that, how frequently they have had a bomb scare or 
how frequently they have had to bring someone down, the 
Superintendent with whom I took the tour said that she couldn't 
recall if there was ever a time, maybe one or two.
    I am sure it happens. I think we have to be careful not to 
let the hypothetical deter the everyday experience. This is not 
for everyone. It is very cramped and that is part of the thing. 
It is about 10 degrees warmer in there easily than it is 
outside, but every so often on the helix, it is a double helix, 
every so often on the helix there is a landing that if you 
needed to just go and sit, it is cramped, you could do it, but 
it probably would be difficult. And I know the fire department 
was invited here, and I think they made the decision it is not 
really their fight. They will rescue whoever needs to be 
rescued. But I think that should be the question the 
Subcommittee asks.
    Mr. Inslee. We will do that. The people who answered Lady 
Liberty's call took a little risk coming to this country, and I 
think taking a little risk here is appropriate, and I am going 
to be encouraging the Park Service to find a solution to this, 
and thanks for prodding us. Thank you.
    Mr. Weiner. Thank you, Jay.
    Mr. Grijalva. Thank you, gentlemen. Any questions, sir?
    Mr. Cole. No.
    Mr. Grijalva. No. Thank you very much. You are more than 
welcome to join us on this committee hearing and participate, 
and thank you very much.
    Mr. Weiner. Thank you, Mr. Chairman.
    Mr. Sires. Thank you, Mr. Chairman.
    Mr. Grijalva. If we could ask Deputy Director Wenk from the 
National Park Service, and then we will begin that part of the 
testimony.
    Mr. Wenk. Good morning.
    Mr. Grijalva. Thank you, sir, and welcome, Mr. Deputy 
Director. Just for the ground rules, your testimony in its 
entirety will be made part of the record, and we look forward 
to the five minutes of your summation, and then we will have an 
opportunity for questions and answers. Thank you, sir. Welcome.

  STATEMENT OF DANIEL N. WENK, DEPUTY DIRECTOR, NATIONAL PARK 
                            SERVICE

    Mr. Wenk. Mr. Chairman and Members of the Committee, thank 
you for the opportunity to appear before you today to provide 
an update on the management issues at the Statue of Liberty 
National Monument and Ellis Island. In particular, my testimony 
will focus on two critical and timely issues facing the park--
public access to the Statue of Liberty's crown and the award of 
the ferry concession contract. Accompanying me today is the 
Superintendent of the Statue of Liberty National Monument and 
Ellis Island, Cynthia Garrett, and the Chief of the National 
Park Service Concession Program, Joe Pendry.
    A gift from the people of France commemorating friendship, 
the abolition of slavery and a democratic government, the 
Statue of Liberty enlightening the world is one of the world's 
most recognizable icons. The Statue of Liberty is a symbol, a 
work of art set on a pedestal that was designed to be viewed 
from the harbor where it served as a visible symbol of the new 
world and new opportunities for people arriving in America.
    Our primary concerns about public access to the Statue of 
Liberty's crown are safety and health concerns, not terrorism. 
While we can never completely eliminate all security risk, we 
are satisfied that the measures and operations put into place 
at this international icon address the security concerns raised 
by the events of September 11, 2001.
    The Statue of Liberty's architect never intended or 
designed the Statue of Liberty as something to enter or climb. 
The interior of the statue structure is accessible only by a 
very narrow, double-helix spiral staircase originally installed 
for periodic use by maintenance workers, not for sightseeing or 
for daily use by the general public.
    Over the past seven years, the National Park Service has 
worked with architectural and engineering firms and has had 
them perform numerous fire protection and emergency management 
assessments. These assessments determined that the interior of 
the Statue of Liberty did not meet minimum health and safety 
standards required by applicable building codes. The experts 
have been unable to identify any feasible options that would 
allow the area between the statue's observation deck and her 
crown to meet code requirements. Therefore, based on health and 
safety issues, the public is no longer allowed access to the 
interior of the statue, including the crown.
    The Federal government must be held to the highest 
standards for public safety. As the stewards of the 391 park 
units across the nation, NPS policies require us to enforce as 
minimum standards the most current version of fire prevention 
and life safety codes.
    In addition to the concern about fire, we must also 
consider and provide access so emergency personnel can respond 
to medical emergencies within the statue. Today, visitors have 
full access to Liberty Island and the interior of the pedestal, 
all the way up to and including the observation deck. There are 
now more options for visitors, including ranger-led programs, a 
museum and a new glass ceiling viewing area at the top of the 
statue's pedestal. We are working hard to improve the quality 
of the entire visit to the Statue of Liberty from the moment 
someone begins planning their visit on the ferry ride over and 
their entire time at Liberty Island.
    I will now turn to the issue of the new ferry service 
concession contract for the Statue of Liberty and Ellis Island. 
Before visitors ever set foot on Liberty Island, their park 
experience begins with our ferry concessionaire as they plan 
their trip and purchase ferry tickets. Concessionaires at this 
historic park provide critical commercial visitor services. 
They provide visitors with food, beverage and merchandise 
services as well as transportation to and from Liberty and 
Ellis Islands.
    The National Park Service recently announced the selection 
of a new concessionaire, Hornblower Yachts, Inc., to provide 
ferry services using the business name Statue Cruises under a 
10-year contract. Statue Cruises will serve as the first point 
of contact for many visitors to the park. This new 
concessionaire is very capable and excited to provide our 
visitors not only safe transport but also a high-quality, 
informative visit to the park. The new contract will be awarded 
following the congressional review and is scheduled to take 
effect on January 1, 2008.
    The National Park Service worked diligently on the 
prospectus development and the proposal evaluation under an 
accelerated timeframe. Our commitment to these processes ensure 
that the solicitation for the ferry service concession contract 
was top-notch and incorporated lessons learned from other 
prospectuses and newly awarded contracts.
    We received six comprehensive competitive offers from 
highly experienced and credible ferry operators. All proposals 
were responsive and contained innovative and creative 
approaches to addressing our objectives for the new concession 
contract.
    We believe the new contract will provide the American 
public and all visitors to this historic site a better 
experience and that this contract will demonstrate the great 
strides the National Park Service has made in concession 
contracting to meet the improvements sought by Congress when 
the Concessions Management Improvement Act of 1998 was passed. 
It enhances visitor services, improves environmental 
responsibility, protects the park resources, ensures assets are 
properly maintained and affords the concessionaire a fair 
opportunity for a profit while providing a franchise fee to the 
park for use on high-priority visitor services.
    In conclusion, the National Park Service is dedicated to 
providing the highest level of visitor services to the public 
who visit the Statue of Liberty and Ellis Island. We are also 
committed to protecting visitors from documented health and 
safety risks. The current management policy of limiting public 
access to the statue's crown is in our opinion the best way to 
provide an enjoyable and enriching experience while not 
exposing visitors to unnecessary risk.
    The award of a new ferry concession contract shows that we 
have made a great deal of progress toward improving our 
concessions program and toward helping ensure these contracts 
protect park resources, provide quality visitor services to 
visitors and offer fair business opportunities.
    This concludes my testimony. I would be happy to answer any 
questions you or other committee members may have.
    [The prepared statement of Mr. Wenk follows:]

             Statement of Daniel N. Wenk, Deputy Director, 
         National Park Service, U.S. Department of the Interior

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to provide an update on 
management issues at the Statue of Liberty National Monument and Ellis 
Island. In particular, my testimony will focus on two critical and 
timely issues facing the park--public access to the Statue of Liberty's 
crown and the award of the ferry concession contract.
    Accompanying me today is the Superintendent of the Statue of 
Liberty National Monument and Ellis Island, Cynthia Garrett, and the 
chief of the National Park Service Concessions Program, Jo Pendry.
    A gift from the people of France commemorating friendship, the 
abolition of slavery, and democratic government, the statue ``Liberty 
Enlightening the World'' is one of the world's most recognized icons. 
She endures as a powerful symbol, inspiring contemplation, debate, and 
protest, of such ideas as liberty, freedom, human rights, democracy, 
and opportunity.
    The Statue of Liberty is a symbol, a work of art set on a pedestal, 
that was designed to be viewed from the harbor where it served as the 
visible symbol of a new world and new opportunities for people arriving 
in America. Her design was a great technological achievement of its 
time and continues to represent a bridge between art and engineering.
    The Statue of Liberty's architect, Fredric Bartholdi, never 
intended or designed the Statue of Liberty as something to enter or 
climb. Only later did the War Department caretakers begin to take some 
curiosity seekers inside the sculpture. By the time the National Park 
Service (NPS) began administering the site in 1933--when there were 
less than two hundred thousand visitors--the NPS had inherited a public 
expectation of access to the Statue's crown. They managed access in 
keeping with the level of awareness of dangers and understanding of 
public safety at the time. Even so, the limited capacity of the Statue 
meant that a relatively small percentage of visitors to Liberty Island 
could be accommodated inside the Statue and that many were disappointed 
in not being able to visit inside.
    Visitation to the Statue has grown tremendously over the past half 
century. In 1950, there were only about half a million visitors to the 
Statue of Liberty annually. In 2006, however, more than 2.5 million 
people visited Liberty Island. With this increase in visitation came 
additional challenges for public health and safety.
    Visitors used to be able to climb to the Statue of Liberty's torch. 
In 1916, the torch was closed for safety reasons. Visitors used to be 
able to climb to the Statue's crown. It too, is closed now because of 
visitor health and safety issues.
    Horrendous tragedies like the Triangle Shirtwaist Factory fire in 
New York, the Coconut Grove fire in Boston, and the recent Station 
nightclub fire in Rhode Island have focused attention on the continual 
need to strengthen and enforce fire and building safety codes in order 
to protect the public in cases of fires and other emergencies. Over 
time, state and local fire and building safety codes that have the 
potential to save countless lives have been developed and improved.
    The Federal Government must be held to the highest standards for 
public safety. As stewards of 391 park units across the Nation with an 
overall annual visitation of 273 million, National Park Service 
policies require us to enforce, as minimum standards, the most current 
version of the National Fire Protection Association's Fire Prevention 
and Life Safety Codes.
    Our primary concerns about public access to the Statue of Liberty's 
crown are safety and health concerns, not terrorism. While we can never 
completely eliminate all security risks, we are satisfied that the 
measures and operations put into place at this international icon 
address the security concerns raised by the events of September 11, 
2001.
    Today, visitors have full access to Liberty Island, to the star-
shaped historic Fort Wood, and the interior of the pedestal all the way 
up to and including the observation deck that affords visitors with 
wonderful, 360 degree panoramic views of New York Harbor.
    The interior of the Statue structure is accessible only by a very 
narrow, double-helix spiral staircase with a low guardrail. This 
staircase was originally installed for periodic use by maintenance 
workers, not for sightseeing or for heavy, daily use by the general 
public. This staircase does not meet national, state or local fire and 
building codes for headroom clearance, riser height, tread width, or 
the requirements for guardrails. Therefore, the public is no longer 
allowed access to the interior of the statue including her crown.
    Climbing the steep, spiral staircase that rises 12 stories up 
through the Statue's interior is a difficult feat even for people in 
excellent health and under ideal conditions. The narrow spiral 
staircase barely fits within the superstructure that supports the 
Statue and is at best, one person wide. A key danger is that once a 
visitor begins the climb, turning back before reaching the crown is 
nearly impossible. Each person is blocked by hundreds of people in 
front and behind. There is only one way out.
    In 2000, the NPS was criticized in the media for disregarding fire 
and safety code violations at the Statue of Liberty. The Bergen Record 
wrote:
        Despite warnings that even a small fire in the Statue of 
        Liberty could be deadly, the U.S. government has failed to take 
        some safety precautions that would protect the throngs who make 
        the long pilgrimage to the statue's crown each day. (October 
        29, 2000)
    We knew that the public had grown to expect to be able to visit the 
Statue's crown, and we also realized the validity and the seriousness 
of the warnings. To guide the efforts to improve health, safety, and 
emergency management at the Statue of Liberty, the NPS began working 
with several well-respected architectural and engineering firms 
specializing in life safety. Over the past 7 years we have had them 
perform numerous fire protection and emergency management assessments. 
In addition, numerous site reviews were conducted by the New York City 
Fire Department.
    These evaluations all agreed on several key points and identified 
significant concerns. They determined that the interior of the Statue 
of Liberty did not meet minimum health and safety standards required by 
applicable building codes. The most serious issues related to: (a) 
egress, (b) visitor circulation and movement inside, and (c) lack of 
fire separations.
    Before allowing visitors back inside the pedestal in August 2004, 
the NPS reduced life and safety risks by aggressively addressing the 
majority of fire, safety, and evacuation deficiencies that had been 
identified for the lower levels of the monument (e.g., pedestal). For 
example, exterior staircases were added to Fort Wood to increase the 
number of egress routes and decrease egress time from the interior of 
the pedestal.
    In June 2006, the NPS asked John B. Waite Associates, Architects to 
review the Statue's 2004 renovations. This review concluded that the 
NPS has made reasonable modifications to allow visitor access to the 
lower portions of the national monument up to and including the 
observation deck. In his letter to NPS accompanying the report, Mr. 
Waite stated: ``These modifications allow a meaningful and rewarding 
experience for visitors, while greatly improving life safety and 
security.'' However, the letter goes on to say that ``...the interior 
spaces within the statue above the observation deck continue to be 
unsafe for visitors when evaluated against minimum safety standards 
established by prescriptive building codes including the International 
Building Code (IBC), the Building Code of the City of New York (BCCNY), 
and the National Fire Protection Association (NFPA) Code 101''.
    According to all three of these codes, the interior of the Statue 
of Liberty above the pedestal is unsafe for public use because of three 
main reasons. First, the stair width, height, and depth are well out of 
compliance with established standards. Safe evacuation of people during 
an emergency would be difficult, and carrying an incapacitated person 
down the stairway would be an arduous task. Second, the stairs are not 
enclosed and do not provide safe passage to an exit. Although the 2004 
renovations improved fire detection and suppression systems throughout 
the monument to reduce the risk of fire, the potential for a fire still 
exists. Should a fire occur, there is no way for people trying to leave 
the Statue to safely escape smoke or heat. Finally, according to code, 
people should be able to reach safe conditions in about 2 1/2 minutes. 
At the Statue of Liberty, under the most ideal conditions, climbing 
down the narrow, winding stairway inside the Statue and then down the 
pedestal to safe conditions outside on Fort Wood would take about 5 to 
8 minutes--up to 3 times the minimum standard. In emergency conditions, 
it could take even longer.
    Back in 2004 and continuing to today, the structural fire and 
safety experts have been unable to identify any feasible options that 
would allow the area between the Statue's observation deck and her 
crown to meet code requirements or even the intent of those 
requirements. There is no room for construction of an alternative 
staircase. An alternative such as constructing a 22-story tower for a 
new staircase next to the Statue, and cutting through the Statue of 
Liberty's copper skin to build a bridge connecting the Statue of 
Liberty and the tower in order to allow safe egress is an unacceptable 
option.
    In addition to the concerns about fire, we must also consider and 
provide access so emergency personnel can respond to medical 
emergencies. Health threats and incidents significantly increased 
during warm weather--coinciding with our busiest seasons--when 
temperatures inside the Statue register about 20 or more degrees higher 
than outside air temperatures. These incidents happened regularly and 
included heat exhaustion, claustrophobia, fear of heights, vertigo, and 
panic attacks. Whether a medical incident was minor or serious, the 
logistics presented serious challenges. To reach an injured or ill 
person on the staircase, everyone on the staircase must turn around, 
and come down the stairs to allow emergency responders to re-climb the 
stairs with appropriate medical gear. This results in a delay to reach 
people with potential, life-threatening medical problems.
    We have also realized that while our visitors knew of the Statue of 
Liberty, they didn't know about her. We have shifted our focus to 
improve the overall visitor experience and to increase programming to 
tell the stories of the Statue of Liberty and share her meaning. Prior 
to 2001, less than 3 percent of visitors participated in park programs. 
Today, about 22 percent of our visitors take advantage of these 
programs.
    There are now more options for visitors. They can go on a variety 
of ranger-led programs, tour a museum, see views of all of New York 
Harbor from the observation deck, and see inside the Statue through a 
new glass-ceiling viewing area at the top of the Statue's pedestal. We 
have enhanced the lighting that highlights her architectural and 
engineering elements and we show video images of the Statue's interior 
so that visitors have an enhanced opportunity to appreciate her as both 
a work of art and as an engineering marvel.
    We are working on other ways to ensure visitors have an outstanding 
experience and to offer those experiences to more people. Our goal is 
to increase by 50% or more the number of visitors who can go inside the 
monument and we aim to double the number of visitors who take part in 
interpretation programs on Liberty Island outside the Statue. We are 
also developing a new ``Discovery Liberty!'' project for visitors who 
for whatever reason cannot go inside the monument. This program creates 
opportunities for visitors to uncover and experience the stories and 
symbolism of Liberty Island and the Statue of Liberty.
    The Statue of Liberty is being experienced as intended, from the 
waters of the harbor and from viewpoints on Liberty Island. Even 
without access to the crown, thousands of visitors every day enter the 
base and travel up the pedestal to observe the inside of the statue 
from a safe vantage point, then walk outside to the top of the pedestal 
to enjoy a spectacular view of New York City and its boroughs, New 
Jersey, and the harbor.
    We recognize that closing access to the crown, even for very good 
reasons, is a deeply emotional issue and one that conflicts with the 
expectations that many people hold. We are working hard to improve the 
quality of the entire visit to the Statue of Liberty--from the moment 
someone begins planning their visit, on the ferry ride over and their 
entire time on Liberty Island. I invite you to visit the Statue of 
Liberty to experience these opportunities, and to come away inspired by 
everything that Lady Liberty represents and offers.
    I will now turn to the issue of the new ferry services concession 
contract for the Statue of Liberty and Ellis Island.
    Before visitors ever set foot on Liberty Island, their park 
experience begins with our ferry concessioner as they plan their trip 
and purchase ferry tickets for the exciting ride from either the 
Battery in Lower Manhattan or Liberty State Park in New Jersey. A trip 
to the Statue of Liberty and Ellis Island is more than a boat ride. It 
is a journey along the path taken by millions of Americans as they 
began a new life of freedom and opportunity. And it is a way to enjoy 
the scenic beauty of New York Harbor with its magnificent skyline and 
towering buildings.
    Concessioners at this historic park provide critical commercial 
visitor services. They provide visitors with food, beverage and 
merchandise services, as well as transportation to and from Liberty and 
Ellis Islands. The NPS recently announced the selection of a new 
concessioner, Hornblower Yachts, Inc., to provide ferry services using 
the business name of Statue Cruises, LLC, under a 10-year contract. The 
previous contract generated $36 million revenue in 2006. Statue Cruises 
will serve as the first point of contact for many visitors to the park. 
This new concessioner is very capable and excited to provide our 
visitors not only safe transport, but also a high-quality, informative 
visit to the park.
    The NPS released a prospectus for the operation of interpretative 
ferry services on December 28, 2006. This prospectus provided 
information for potential offerors to develop a proposal for providing 
ferry services. It also emphasized and sought answers to important 
improvements needed in the visitor services at the Statue of Liberty 
and Ellis Island. For example, we asked offerors to tell us how they 
would improve visitor experiences from trip planning all the way 
through the completion of the visit to the park. We asked them to 
describe the reservation and ticketing system they would use to better 
manage the high volume of visitors to this park. We also asked them how 
they would more effectively use both embarkation locations and 
alleviate long wait times.
    The NPS worked diligently on the prospectus development and 
proposal evaluation under an accelerated timeline. We welcomed and 
cooperated with the Department of the Interior Inspector General's 
Office who monitored the entire process. Our commitment to these 
processes ensured that the solicitation for the ferry service 
concession contract was top-notch and incorporated lessons learned from 
other prospectuses and newly awarded contracts.
    Proposals were due to the NPS by April 27, 2007. We received six 
comprehensive competitive offers from highly experienced and credible 
ferry operators. All proposals were responsive and contained innovative 
and creative approaches to addressing our objectives for the new 
concession contract. The NPS convened a panel of qualified NPS 
employees that evaluated all proposals and recommended that Statue 
Cruises be awarded the contract. Based on this recommendation, the 
Regional Director selected Statute Cruises for the award of the new 
contract. The contract was sent to Congress on July 25, 2007 for the 
required 60-day notice period. The new contract will be awarded 
following the congressional review and is scheduled to take effect on 
January 1, 2008.
    To allow for a seamless transition for our visitors to the new 
concessioner's operations, the current concessioner agreed to a short 
continuation of services. The current concessioner has also agreed to 
work with the park and Statue Cruises to ensure a smooth changeover and 
no negative impacts to the public.
    Our experience with the prospectus development, proposal 
evaluation, and selection process is an exceptional example of how 
visitor services in national parks are being improved under the 
provisions of the Concession Management Improvement Act of 1998. The 
NPS embraces the Act's goal of increasing competition while protecting 
park resources and providing necessary and appropriate visitor services 
at reasonable rates.
    The new contract will make trip planning and the ferry ride to and 
from these international icons convenient, educational, customer-
service oriented, and environmentally conscious.
    Some of the highlights of the new concession contract with Statue 
Cruises include:
    <bullet>  A focus on visitor convenience, experience and customer 
service, to include improved visitor embarkation facilities; greeting 
and offering assistance to visitors at ticketing, embarkation and 
disembarkation sites; new educational and orientation signage; an 
opportunity for visitors to record their impressions; a narrated 
multimedia presentation on the island cruises; and online chat 
capability with customer service representatives.
    <bullet>  A new multi-lingual reservation and ticketing system for 
dated and timed ferry tickets, sales of the park audio tour, and 
distribution of monument passes. System features include ticket sales 
via the phone or Internet; ability to print tickets from personal 
computers; a multi-lingual call center, remote kiosks, and walk-up 
sales; a ``concierge hot line'' for hotels; and no-cost exchange of 
ferry tickets for island cruise tickets to reduce waiting times.
    <bullet>  An improvement to the visitor experience by incorporating 
park stories into the ferry services through approved media, to include 
new signs, exhibits and educational panels; on-board audio tours in 
combination with ferry tickets; podcasts and video-on-demand casts 
available from the web site; and new exhibits and educational programs 
at embarkation and docking facilities. By utilizing newer technology 
such as podcasts, we hope to attract younger visitors who are more 
interested in interactive media at park units.
    <bullet>  An extensive upgrade to the existing fleet of seven 
vessels, to include an environmentally progressive plan to retrofit the 
ferries to meet stricter emissions standards. Additionally, the new 
island cruises will be provided using a new reduced-emission battery-
powered solar and plug-in ``Trybrid'' vessel to be available at the end 
of the second year of the contract.
    <bullet>  New island cruises where passengers remain on the vessel 
and view the Statue of Liberty and Ellis Island from the water within 
park boundaries while listening to or watching on-board interpretative 
media. The tour will be a welcome alternative for visitors wanting to 
avoid long lines during peak season, who have limited time for their 
visit, or have limited mobility that prevents them from walking around 
the two islands.
    We believe the new contract at the Statue of Liberty National 
Monument and Ellis Island will provide the American public and all 
visitors to this historic site a better experience, and that this 
contract will demonstrate the great strides the NPS has made in 
concession contracting to meet the improvements sought by Congress when 
the 1998 law was passed. It enhances visitor services, improves 
environmental responsibility, protects the park resources, ensures 
assets are properly maintained, and affords the concessioner a fair 
opportunity for a profit while providing a franchise fee to the park 
for use on high priority visitor services. We will now transition from 
the old concession operation to the new operation, implement the 
contract with Statue Cruises as written, and enforce its provisions in 
a manner consistent with the law and regulations.
    We will work with our new concessioner as we do with all our 
concessioners--in a mutually beneficial relationship to ensure all 
parties are successful and achieve the goal of outstanding visitor 
services.
    In conclusion, the NPS is dedicated to providing the highest level 
of visitor services to the public who visit the Statue of Liberty and 
Ellis Island. We also are committed to protecting visitors from 
documented health and safety risks. The current management policy of 
limiting public access to the Statue's crown is, in our opinion, the 
best way to provide an enjoyable and enriching experience while not 
exposing visitors to unnecessary risks. The award of the new ferry 
concessions contract shows that we have made a great deal of progress 
toward improving our concession program, and toward helping ensure 
these contracts protect park resources, provide quality service to 
visitors, and offer fair business opportunities.
    This concludes my testimony. I would be happy to answer any 
questions you or other committee members might have.
                                 ______
                                 
    Mr. Grijalva. Thank you, and I am going to begin just 
focusing on the discussion, the first part of your testimony 
having to do with the statue and then when we get another turn 
to ask questions relative to the concessionaire contract.
    Let me go to the point that Congressman Weiner brought up 
having to do with the fundraising campaign. Did that money as 
it was raised become Federal money, by that I mean controlled 
by the National Park Service, or was it controlled by the 
private entity, the foundation that was doing the fundraising?
    Mr. Wenk. I believe the money was actually controlled by 
the partner organization that raised the money and directed to 
projects that were mutually agreed on between the National Park 
Service and the partner.
    Mr. Grijalva. So the coordination of the expenditure of 
that money was between the National Park Service and the 
foundation?
    Mr. Wenk. That is correct.
    Mr. Grijalva. And let me ask an interpretation question. If 
the fundraising campaign as described by the Congressman was 
such that the effort was to open in the full sense of the word 
the Statue of Liberty, some of the decisions I could surmise 
for myself were not consistent with that campaign. Am I 
misreading that?
    Mr. Wenk. I believe that of the monies that were raised, 
approximately $6 million was spent within the pedestal area of 
the statue and also providing the visible access into the 
statue herself. So those monies were expended in order to make 
possible access, once again dealing with current life, health, 
safety and fire codes for the pedestal area.
    Mr. Grijalva. OK. But as I understand it, the premise of 
the campaign was to open the statue after 9/11 for full public 
access, and that included the crown at the time. There was the 
perception that was the case. And you redefined ``open.'' There 
was a great deal of disappointment on the part of the donors 
and the campaign, people that were giving money, and that is 
the impression I had.
    Mr. Wenk. I think it certainly does not appear to be that 
there was any kind of distinction made in terms of that it was 
only going to be to the pedestal. I think there was still 
active debate within the National Park Service whether or not 
we could in fact open the statue all the way to the crown at 
that time or not. I think there was no intention to mislead the 
public with the campaign.
    Mr. Grijalva. But you can appreciate the disappointment.
    OK. Prior to 9/11, the National Park Service commissioned a 
fire protection and egress study for the Statue of Liberty 
which concluded, and I quote from it, ``Although significant, 
the fire protection concerns at the Statue of Liberty are not 
necessarily of such magnitude that access to the statue 
interior and crown viewing area should be positively deemed off 
limits to the general public.''
    My question is, what has changed since that report prior to 
9/11 when it was released that no longer makes that conclusion 
applicable or relevant?
    Mr. Wenk. I believe it is a greater appreciation for the 
risks with which we are putting the visiting public. At the 
time that the statue was closed in 2001, we have had the 
opportunity not only with that study but subsequent studies to 
fully understand and comprehend the situation with life, 
health, safety codes within the statue herself, also the 
improvements that were necessary in the pedestal area.
    I believe that we now know that it does not meet any 
international, national, local or fire protection codes to put 
visitors inside the pedestal because of the steepness of the 
stairway, the clearances, the width of the treads on the stairs 
themselves as well as compartmentalizations that is necessary 
in terms of smoke and fire. And we have in fact looked at other 
opportunities or options, and we believe none of them can be 
achieved without having a negative impact on the structure 
itself.
    Mr. Grijalva. The Park Service has its own regulatory 
authority over the park sites.
    Mr. Wenk. Our regulatory authority, we defer to national 
and local building codes, and it is our position that we will 
follow those codes by policy as a minimum standard.
    Mr. Grijalva. OK.
    Mr. Wenk. It is our policy that we will follow those codes 
as a minimum standard.
    Mr. Grijalva. Consistent with that policy, sir, and this 
will be my last question, the arch in St. Louis, the Washington 
Monument have very tight spaces that are accessible to the 
public. Do you consider those sites to be safe for the public 
and the crown at the statue not?
    Mr. Wenk. Actually, I will use the example of the 
Washington Monument. The interior stairways, those, for 
example, have the width, they have the treads that it is 
considered within the life, health, safety codes for access. It 
is a different situation than the Statue of Liberty in terms of 
the amount of space, the steepness, tread width, handrail 
height, clearances for head clearance, et cetera, that do not 
exist, for example, at the Washington Monument.
    Mr. Grijalva. At the discretion of this committee to ask 
for and insist upon some alternative plans to promote access by 
the public to the crown, at least in your testimony, you don't 
eliminate that possibility entirely, do you, or do you?
    Mr. Wenk. I believe certainly we would look at any requests 
that our committee will direct us to do or Congress would 
direct us to do. We believe that we have made inquiries in 
terms of what could we do to make it accessible. We would 
continue to look if so directed by the Committee.
    Mr. Grijalva. With that, my time is up. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Wenk. I appreciate you being 
here. Let me see if I understand this correctly. What you are 
saying, there is a difference in the Park Service estimation 
between national security issues and safety issues?
    Mr. Wenk. Yes.
    Mr. Bishop. And what you are talking about here is this is 
a safety issue, not a national security issue?
    Mr. Wenk. We believe that we have put the security measures 
in place that provide adequate security for the memorial both 
at the debarkation points and also at the island itself, and so 
we are dealing with a safety issue for access to the crown 
itself.
    Mr. Bishop. That was a yes?
    Mr. Wenk. Yes. I am sorry.
    Mr. Bishop. Is the second Floor on Independence Hall open?
    Mr. Wenk. I am sorry. I can't answer that question.
    Mr. Bishop. Last time I went there that was closed to the 
public as well. Well, OK. If you are going to open stuff, I 
would like that added to the list of stuff that you need to 
open.
    So what you are basically telling me is the French did a 
lousy design on the interior of the statue and they are to 
blame because they screwed it up again.
    Mr. Wenk. I am not saying that.
    Mr. Bishop. Oh.
    Mr. Wenk. I am saying that it was never intended for public 
access, only maintenance activities when they used to go to the 
crown, for example, or excuse me, to the torch.
    Mr. Bishop. The Park Service has looked at possibilities of 
improving the staircase in the past, I am assuming?
    Mr. Wenk. Yes, we have.
    Mr. Bishop. One of the contentions that was made is that 
the premise upon which you looked at those improvements was not 
how to make it happen but how to justify not making it happen. 
Do you deny that premise?
    Mr. Wenk. Yes, I deny it. We have asked the question of the 
architects and engineers who have looked at what might be 
possible.
    Mr. Bishop. Can I also ask you, in the chart that the 
Congressman from New York presented, there was a spike in 2005 
of about half a million new visitors. That went down about a 
million visitors in 2006. Does the Park Service have a reason 
for that tourist visitation spike in 2005 that stands out in 
the five-year run?
    Mr. Wenk. I am not familiar with the chart that was shown. 
I am looking at the park visitation numbers that I have. I show 
total visits to Liberty as 2,531,000 in 2005 and 2,515,000 in 
2006. Total visits to both Liberty and Ellis only decreased 
about 50,000 people during those two years. So I don't have 
that same spike in our visitation statistics.
    Mr. Bishop. Have your staff check your website. That is 
where we got these from.
    Mr. Wenk. I will do that.
    Mr. Bishop. Let me ask one other thing as well. They have 
talked about the money that was raised in the private campaign. 
How long did that private campaign to open up the Statue of 
Liberty last?
    Mr. Wenk. I would have to ask Superintendent Garrett if she 
has the answer to that. Do you know?
    About 16 months, sir. Six to eight months, sir. I am sorry.
    Mr. Bishop. I think the consensus has been at least the 
impression for what purpose the money was used is different 
than how it was used. Did the Park Service do anything to 
remedy that, to change, especially after the audit came 
through? Did the Park Service do anything about those reports 
that came back?
    Mr. Wenk. I guess I would, sir, with your permission ask 
Cynthia Garrett to come up and answer that question. I do not 
know the answer to that.
    Mr. Bishop. Please. Can you just give your name for the 
record as well?
    Ms. Garrett. Sure. Good morning. My name is Cynthia 
Garrett, and I am the Superintendent of the Statue of Liberty 
and Ellis Island. Thank you.
    The money as we understand it, and we looked at the records 
of the foundation and the money that they spent, that they 
raised on the campaign, the money was used all for improvements 
to help reopen the monument to visitors.
    Mr. Bishop. So you are satisfied with the way the money was 
expended?
    Ms. Garrett. Yes.
    Mr. Bishop. OK.
    Mr. Wenk. Some of the expenses, sir, that were mentioned 
earlier that were paid out of the endowment from the foundation 
were not part of the fundraising campaign itself. I do know 
that.
    Mr. Bishop. OK. I am assuming there will probably be some 
other questions about that for both of you. And Mr. Wenk, after 
we have our third panel, I am sure there are going to be some 
other questions that deal with the contract itself, and I would 
hope that you would make yourself available to answer those 
questions if they are submitted to you in writing.
    Mr. Wenk. I would be pleased to do so.
    Mr. Bishop. Thank you. I will yield.
    Mr. Grijalva. Thank you. Mr. Hinchey, any questions?
    Mr. Hinchey. Thank you very much, Mr. Chairman, and Mr. 
Wenk, thank you for being here. It is very nice to have this 
opportunity to listen to you about this very important subject.
    I am a citizen of the State of New York and former resident 
of Manhattan, so I have a deep appreciation for the Statue of 
Liberty and a deep sense of frustration over the fact that it 
is still not fully reopened after it closed down as a result of 
the attack of September 11, 2001. And as far as I know, this is 
the only national monument in the country that remains closed. 
So I am wondering if you can give us the explicit reasons why 
it is still closed, why appropriate action is not being taken 
to open it fully and completely and what exactly you are going 
to do to bring that about.
    Already there has been something in the neighborhood of 
$500 million that has been contributed by people all across the 
country to the reopening of the monument. Nevertheless that 
hasn't seemed to have any effect on the ability of the National 
Park Service to really address this issue the way it needs to 
be addressed. So if you could just tell us that, what your 
intentions are. What are the Park Service intentions? When are 
you going to open the Statue of Liberty?
    As far as I know, the only part that is open now is the 
part that is constructed here in our own country. The entire 
French part, to follow up on Mr. Bishop's question, the entire 
French part of the statue is still closed. That doesn't make 
any sense. So I am interested in what your plans are and how 
soon you think that the monument will be completely open.
    Mr. Wenk. The present plans of the National Park Service 
are not to open the statue itself to the public, and we will 
not open it because it does not meet life, health, safety codes 
and fire codes, whether those are international, national, 
local life, health, safety codes.
    Mr. Hinchey. What are you going to do to address those 
safety and fire codes? How are you going to correct them? How 
are you going to bring them about to a position where you will 
start feeling comfortable in reopening it?
    Mr. Wenk. We have discussed the potential to reopen it with 
the architectural and engineering firms. We do not believe that 
we can provide access.
    Mr. Hinchey. Why not? Why don't you discuss that?
    Mr. Wenk. We have discussed it, sir.
    Mr. Hinchey. Oh. Well, what is the result of those 
discussions?
    Mr. Wenk. Without considerable modifications to the statue 
itself, without some kind of exterior access in and out of the 
statue, we cannot make it safe according to the international, 
national, local, and fire codes.
    Mr. Hinchey. So you are saying that based upon your 
analysis and the cooperation that you have with this 
architectural firm that there is no way of making that safe and 
secure? There is no way of opening it?
    Mr. Wenk. What I said, sir, in using just the interior 
without modifying the actual structure of Lady Liberty herself 
I am told that we cannot provide access and meet the code 
requirements.
    Mr. Hinchey. Well, that seems very odd to me. I have been 
in that statue, and the statue was open for a long, long time, 
only closed down around the middle of September of 2001. So if 
it was safe for people prior to September 11, 2001, and it was 
safe for many, many years for people to go in there, why isn't 
it safe anymore, and why was it closed on the basis of the 
attack of September 11? And now you are saying it remains 
closed not because of anything to do with that attack but 
because your assertion is that it is just not safe to have it 
open. Why was it safe then and not safe now?
    Mr. Wenk. First of all, I do not know what the exact codes 
were at the time that the public was allowed access to it 
initially. That may have met the codes at that time. Life, 
health, safety codes do evolve. However, I can say that it was 
closed after September 11 because of the security concern 
initially. We used that opportunity to evaluate the life, 
health, safety codes, the fire codes, and it does not meet 
those codes and has probably not met those codes, sir, for a 
number of years, so it probably was not safe for a number of 
years.
    Mr. Hinchey. Will you give us a written statement showing 
in detail what it is specifically about those codes that you 
reference that are not being met and what it would take to get 
us to a situation where those needs would be fully and 
completely met and why in the interim that statue cannot be 
reopened simply on the basis of the way it was prior to the 
attack of September 11?
    Mr. Wenk. Yes, I can. We can provide that.
    Mr. Hinchey. We know there is no place in the country, no 
park, including the Washington Monument, that is absolutely 
risk-free. So we don't anticipate that the Statue of Liberty is 
ever going to be completely risk-free. People walking up those 
stairs might slip, someone might have a minor accident, all of 
those things are possible. But that is possible in the 
Washington Monument. It is possible in many ways in virtually 
any national monument all across the country.
    So it is very difficult for us to understand why the Statue 
of Liberty has been isolated among all the national monuments 
and not open to the public in spite of the fact that huge 
amounts of money have been contributed and this Congress is in 
the position to provide the financial resources to deal with 
the needs of that monument to open it up.
    So if you would kindly give us all of that information, 
what the problems are and what it would take to realize the 
full potential of reopening the monument, we would be deeply 
appreciative.
    Mr. Wenk. We will do that.
    Mr. Hinchey. Thank you.
    Mr. Wenk. If I could add one thing to further answer a 
question. As you may know, we made some modifications to the 
pedestal itself in terms of two more exterior egress points so 
that we could in fact bring people into the pedestal area, take 
them to the observation deck.
    There are just a couple other points I would like to make. 
There is only a limited number of people who visit Liberty 
Island today who are able to go to the statue. Even prior to 9/
11, approximately only 1,500 of the 15-to-18,000 visitors who 
visited the island on a daily basis were able to make the trek 
to the top and to the crown. It was limited to the two first 
ferry boats that went to the island. So it is never going to be 
a situation where if we could meet life, health, safety codes 
that all visitors to the island would be able to go to the 
crown. That wasn't possible then, and it is not now.
    Mr. Hinchey. If I may, Mr. Chairman, let me just give you 
the information I have and see what your response is to that. 
The annual visitors to the Statue of Liberty have now dropped 
44 percent since she was closed. That drop has been from 3.6 
million in the year 2000 to 2.5 million in 2006. The number of 
people coming into New York City has gone up dramatically, but 
the number now who have access to the island and the statue has 
dropped off significantly, 44 percent, and the reason for that 
is the fact that it is not accessible. That is why we want to 
open it up. We want to get the statue reopened, and we would 
very much like to have your cooperation and assistance and 
direction as to how to do that as soon as possible.
    Mr. Wenk. We will provide the information you requested.
    Mr. Grijalva. Thank you, sir.
    Mr. Hinchey. Thank you.
    Mr. Grijalva. Mr. Gohmert, any questions?
    Mr. Gohmert. Yes. Thank you, Mr. Chairman.
    To come back to your assistant that stepped up to provide 
testimony, if I could ask one more question with the Chairman's 
indulgence since that is her area of expertise. If you wouldn't 
mind coming back to the microphone.
    You had mentioned that all the money was used for 
reopening, which gratified me. So you have done an audit of the 
money that was spent by this as I understand partner 
organization, is that correct?
    Ms. Garrett. Yes, and we worked very closely with them 
while the work was being done.
    Mr. Gohmert. And who actually does the audit?
    Ms. Garrett. We didn't do an audit per se.
    Mr. Gohmert. Oh. Well, that was my question actually. You 
misunderstood.
    Ms. Garrett. No, not an audit.
    Mr. Gohmert. That is what gratified me is to hear that you 
had done an audit so you knew that all the money was spent for 
reopening. And please understand even though you weren't sworn 
in, when people provide testimony at a hearing, there is a 
crime aspect in not being truthful. I am sure you understand 
that. So let me ask you, do you have personal firsthand 
knowledge of how the money was spent by this so-called partner 
organization?
    Ms. Garrett. I have not audited their records directly. 
From the material that I have seen, I am satisfied that the 
money was spent as it was intended, but I do not have firsthand 
knowledge of what you are asking.
    Mr. Gohmert. OK. And does anyone who is a part of the 
National Park Service do an audit of such a partnership 
organization?
    Ms. Garrett. The foundation and all of our partners do 
audits or have audits done.
    Mr. Gohmert. So that is a ``no'' then because the 
foundation is not part of the National Park Service?
    Ms. Garrett. The National Park Service has not audited this 
that I am aware of.
    Mr. Gohmert. All right. Thank you.
    With regard to partner organizations, who decides what will 
be a partner organization and what will not be?
    Ms. Garrett. The National Park Service works with an 
interested partner to determine whether they are meeting a need 
of ours and whether we should go into an agreement with them.
    Mr. Gohmert. But I am presupposing that they are not 
partners yet. I am asking who determines who should be a 
partner? And perhaps Director Wenk can answer if you know, who 
decides who will be a partner organization?
    Mr. Wenk. The National Park Service makes that decision 
based on our management policies. Many parks have more than one 
partner. They may be partners to meet different needs of the 
National Park Service and the particular park area, and we sign 
agreements with them formalizing that arrangement.
    Mr. Gohmert. And the agreements do not have any provision 
for an audit by the NPS, is that correct?
    Mr. Wenk. We require independent audits of many of the 
partner organizations that are fundraising.
    Mr. Gohmert. OK. Has an independent audit been required of 
the Statue of Liberty group, that organization?
    Mr. Wenk. I am going to tell you that I need to check. I 
assume that it is, but I am going to check.
    Mr. Gohmert. You are going to tell me that, but is that 
the----
    Mr. Wenk. I am going to check and get back to you to make 
sure.
    Mr. Gohmert. OK. Thank you.
    Mr. Wenk. I will get you the last independent audits that 
have been done. We can get you those audits.
    Mr. Gohmert. So there have been independent audits done?
    Mr. Wenk. That is the typical case with partner 
organizations.
    Mr. Gohmert. So you don't know for sure whether there have 
been?
    Mr. Wenk. I do not know for sure that this one has.
    Mr. Gohmert. OK. Because it would be real hard to get them 
if they hadn't been done.
    Mr. Wenk. It would be very hard.
    Mr. Gohmert. Now you had mentioned concern as I understood 
Mr. Hinchey's question about the exterior access and that that 
is a concern, is that correct?
    Mr. Wenk. Yes.
    Mr. Gohmert. That there is a safety problem to get people 
out of the statue, is that correct?
    Mr. Wenk. Correct.
    Mr. Gohmert. Have you ever hiked in wilderness areas run by 
the National Park Service?
    Mr. Wenk. Absolutely.
    Mr. Gohmert. And you are aware that if you get into an 
emergency situation in some wilderness areas, we don't allow 
machines to go in, nothing mechanical? You are just, as we used 
to say in the Army, kind of SOL. We will get you out the best 
way we can. Are you familiar with that concept?
    Mr. Wenk. Yes.
    Mr. Gohmert. I asked a question earlier about waivers, and 
it dawned on me there are a handful of people that get to go to 
the top of the dome of the United States Capitol but not until 
they sign a full-page waiver saying they are giving up all 
rights to make any claim just for the opportunity to take that 
risk and get to a height that just stirs men's and women's 
souls. So I am wondering if that still wouldn't be a 
possibility.
    Do you know of any area in which other than, and I 
understand the dome is not run by the Park Service, but where 
the Park Service uses waivers in areas that may not be that 
safe, may have people have heart attacks, may have people slip 
and hurt themselves, but they sign a waiver because the 
potential gain is so much greater than the risk? Do you know of 
waivers like that you use?
    Mr. Wenk. I know of no waivers that the National Park 
Service has in place for our own facilities. However, there are 
waivers that are offered by the concessionaire for high risk 
recreational opportunities.
    Mr. Gohmert. OK. Could I have indulgence to ask--OK.
    Also, there were safety code violations that you had 
mentioned, and I want to know specifically whose safety codes 
are we talking about. Are they Federal? Are they state?
    Mr. Wenk. If you will give me a moment, I can look up the 
codes.
    Mr. Gohmert. Because I am wondering if we maketh the law, 
then perhaps we could changeth the law from this standpoint.
    Mr. Wenk. I am just making sure I know which one this is. 
Public Law 100-678, codified in 4 U.S.C. Sec. 3312[b], 
basically deals with building codes for the General Services 
Administration, which we comply with.
    Mr. Gohmert. OK. So we make it, we can change it to allow 
for waivers, I would think.
    Mr. Wenk. And there are other things out there, for 
example, the International Building Code, Building Code of New 
York City and the National Fire Protection Association Code 
101.
    Mr. Gohmert. OK. And just in conclusion, I would just 
submit if we want Americans once again to fly with the eagles, 
the Park Service shouldn't force them to walk with the turkeys. 
Thank you.
    Mr. Grijalva. Thank you, sir. Mr. Inslee.
    Mr. Inslee. Thank you. I just want to get into a problem-
solving mode here and figure out how to solve this problem. I 
think it is real clear Americans want to get access to this 
treasured place. Right now what you are telling us is there are 
some codes that are preventing them from getting access to this 
treasured place. We don't want the terrorists to have won here, 
and it seems to me we have to find a way to solve this problem.
    What I hear you saying listening is that there are two 
things we need to do: [1] we need to empower the Park Service 
to figure out how to provide the best access and the safest 
means possible given the constraints of that architecture, 
number one, and [2] obtain for you a waiver of any code that 
you think you are violating now, which you have violated for 50 
years apparently before you took this step, so that you can 
allow access.
    Now, if those are the two things we need to get done to 
solve this problem, what do we need to do to get that done?
    Mr. Wenk. I am not sure how to answer the question, sir. I 
am sorry. It is the policies and procedures of the National 
Park Service to adhere to the building codes, whether they be 
building codes or fire codes. As long as those fire codes and 
building codes pertain to the National Park Service in places 
that we administer, we are obligated to follow those codes, not 
to put people at risk.
    Granted, there has not been a fire in the history, but we 
do have, and you should be aware that when I spoke with staff 
over the last few days, we have probably four or five incidents 
a day during the summer season where we have to provide some 
kind of assistance to visitors who have problems within the 
access to the crown.
    Mr. Inslee. By the way, you have to understand I am a big 
fan of your service. I am a real fan of what you are doing, and 
I feel that these are such treasured places that sometimes we 
make exceptions for things we might do at the mall. We do 
things differently in a national park than we do at a shopping 
mall. We take experiences on Mount Rainier and fire lookouts 
and ladders to get access that are different than we do at the 
mall because they are just such special places.
    What I would like to ask you to do is get into a problem-
solving mode psychologically and think, how are we going to 
solve this problem? If we tell you it should be the national 
policy that Americans should get access to that place, and we 
are not going to build a structure around it for a fire escape 
because that is just untenable and unacceptable, to get into a 
problem-solving strategy how to solve this.
    Now, to me, the way we solve this is if we have to pass a 
law directing you to provide Congress a study of how to provide 
the safest access and the safest fire suppression or detection 
that we can under the circumstances, and second, if it requires 
a statutory change to actually relieve you of some code 
obligation that may exist somewhere else.
    Now are those two things, the two things if we did that 
could we get people back into the thing?
    Mr. Wenk. I do not know the answer to whether or not we 
could because we have asked the question of what we would have 
to do, and we were told that modifications cannot be made 
within the limited space to meet the codes. So that is the 
first thing.
    Mr. Inslee. If we relieve you of this code, if we said 
there is a special unique thing about this place in America to 
suggest these codes shouldn't be the place to keep Americans 
out of this treasured place, and that one unique circumstance--
by the way, you have thousands of places in your parks that 
don't meet code with all due respect because of the 
circumstances that are involved. The structure up at Paradise 
in Mount Rainier doesn't meet code, but you have to hike up 
5,000 feet to get there, and if we didn't have it there, it 
would be much more difficult to climb Mount Rainier.
    So there are some circumstances in the parks where we adopt 
just a little higher level of risk to celebrate America. You 
know what I am saying here?
    Mr. Wenk. I understand.
    Mr. Inslee. And I am saying here we want to solve the 
problem so you can allow Americans to make an independent 
judgment to have that experience. So let me just ask you again. 
If we gave you a special appropriation or a statute that said, 
``Go figure out how to make this as safe as possible,'' and we 
are going to relieve you of this code obligation, could you do 
that?
    Mr. Wenk. We could respond and tell you exactly what we can 
do, the safest way we could make it, and I would hope that in 
the problem-solving manner you are talking about we could work 
together to determine whether or not that was appropriate 
action to take to provide the access you are asking for.
    Mr. Inslee. Well, what I would ask you to do without having 
to go through an act of Congress literally is to provide this 
committee with a report of the best way you can get Americans 
to get access there in the safest way with some approximation 
of the cost involved to do that. Maybe that is additional 
handrails, maybe it is additional lighting, maybe it is 
additional fire suppression equipment in there, what it would 
take to do it as safe as we can.
    Then ask us if necessary to relieve you, to give a special 
code, we will call it the ``Liberty Code.'' It will be a code 
that applies to this circumstance to make it as safe as 
possible. Can you do that?
    Mr. Wenk. Yes, we can do that.
    Mr. Inslee. I appreciate that, and let us work together to 
get this job done. Thank you.
    Mr. Grijalva. We have been called for three votes. Mr. 
Weiner, would you prefer to wait until after the votes?
    Mr. Weiner. I just need one minute to make a few quick 
points to clarify.
    Mr. Grijalva. Mr. Weiner.
    Mr. Weiner. I just want to ask the question. First, I thank 
very much the Chair.
    There is no law of the United States of America, New York 
State, New York City or New Jersey that binds you to any 
specific building code for the monument, is there?
    Mr. Wenk. We have exclusive jurisdiction on the memorial.
    Mr. Weiner. Correct.
    Mr. Wenk. So that is correct.
    Mr. Weiner. I just wanted to make sure that was clear, 
because there was some misconception I think that might have 
been left that you are required to.
    Are you aware that the National Park Service, U.S. 
Department of the Interior, has a special waiver that is 
required at the Rio Grande Wild and Scenic River that people 
have to sign acknowledging the risk of participating in the 
activities? Are you aware of that?
    Mr. Wenk. I am not aware. Is that a National Park Service 
or concession waiver, sir?
    Mr. Weiner. Let us see. I don't know. It is ``Rio Grande 
Wild and Scenic River Assumption of Risk, An Agreement of 
Release and Indemnity.'' It is something that visitors to the 
National Park Service have to sign to participate in certain 
activities on that river.
    Again, an impression might have been left that there is 
somehow not the use of waivers in the National Park Service. 
There clearly are, and this is available on the Internet. I 
would give you the URL, but I don't have it here.
    Finally, by way of clarification, another point that I 
think might have been, and the gentleman from Texas asked, are 
you aware that in November of 2005, the Inspector General of 
the Interior Department did indeed do an audit of the 
activities of the Statue of Liberty/Ellis Island Foundation?
    Mr. Wenk. I believe I knew that happened, yes.
    Mr. Weiner. OK. I just want to make sure the impression was 
not left that that hadn't been done.
    And are you aware that it was very, very critical of the 
improper relationship between the National Park Service and the 
Statue of Liberty/Ellis Island Foundation?
    Mr. Wenk. I am not aware of the contents of it.
    Mr. Weiner. Well, I would be glad since you are providing 
us with some problem-solving at the request of Mr. Inslee, I 
will provide you with a copy of that, albeit it was very 
heavily redacted for reasons that are still puzzling to me. But 
the conclusions basically were that there were improper 
relationships that had gone on there, and I believe to say that 
the money was raised to open the pedestal is incorrect.
    Finally, in response to the Ranking Member's question where 
he asked why was there a spike from 2004 to 2005, Secretary 
Norton I believe at around the time of the Republican 
Convention made a big announcement--Lady Liberty was being 
opened. What did she mean? The pedestal was being reopened, and 
there was additional visitorship. But if you want to get back 
to that peak and go beyond and take advantage of all the 
tourism and giving people the fullest experience they can, you 
have to open the crown to be able to do it.
    Don't misunderstand. This committee does not want you to 
put people in unnecessary danger, but this is something that we 
are not asking. The test is not 100 percent safety. This is not 
climbing into your mother's arms. This is going into part of 
the National Park Service that all Americans would want to have 
open I would dare say even if they don't participate in that 
adventure, to know that it is available.
    I thank the Chairman for permitting.
    Mr. Inslee. Would you yield for a minute?
    Mr. Weiner. Certainly.
    Mr. Inslee. We understand the challenges of this for the 
National Park Service, and we appreciate their diligence. I 
have seen 100 times the Park Service doing great things at 
their own risk sometimes. We just want to express that 
appreciation to your people. Thank you.
    Mr. Grijalva. Thank you, Mr. Inslee.
    We are going to recess for the three votes, and Mr. Deputy 
Director, we will continue with the questions on the other 
portion of it when we come back.
    Mr. Wenk. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you.
    [Recess.]
    Mr. Grijalva. Allow me to reconvene the meeting, and thank 
you, Mr. Deputy Director, for your patience.
    One more round of questions. One question before turning 
over to the ferry concession. Did the National Park Service 
engage in any sort of formal process where various alternatives 
for allowing access to the statue were examined, and if there 
was a process, was there a public comment period during that?
    Mr. Wenk. We had the access issues evaluated by 
architectural/engineering firms under contract to us. I am not 
aware that there was any public process used to engage the 
public in the discussion about access to the crown at all, but 
we do have the reports from architectural and engineering firms 
on the access situation.
    Mr. Grijalva. Thank you. And let me go over to the 
concession issue. In selecting Hornblower Yachts as the new 
concessionaire for the ferry service to the statue, did the 
agency consider, did the department consider Hornblower's 
records so far as providing that ongoing service to Alcatraz?
    Mr. Wenk. We considered the experience and the proposals 
and experience of Hornblower, Inc. Certainly one of their 
experiences is Alcatraz, so I think it was considered as part 
of the whole, yes.
    Mr. Grijalva. One of the things that I have heard and had 
information provided is having to do with the dissatisfaction 
of the Port of San Francisco. The port owns many of the 
facilities Hornblower says it plans to use in its concession. 
Yet the port repeatedly informs my office that they haven't 
been provided with any information regarding those plans, and 
so let me ask you about the environmental record, because I 
believe one of the salient points in awarding the contract to 
Hornblower was the installation of pollution controls on its 
boats, the development of hybrid boats using wind and solar 
energy. Have those been satisfied?
    More importantly, is NPS fully satisfied with the 
information and with the service that the concessionaire is 
offering in San Francisco, because that will lead me to if that 
was, as you said earlier, if that was the determining factor in 
awarding the contract at New York.
    Mr. Wenk. First of all, in terms of the boats, I believe 
there was an immediate improvement to the emissions of boats, 
an improvement of 80 percent, by 80 percent. That was done 
immediately by Hornblower when they took the contract. They are 
under contract for the construction of the new boat, for the 
design and construction of the new boat that they were required 
to provide.
    I believe that the visitor satisfaction levels are high for 
the experience that is being provided by Hornblower in terms of 
their transportation to Alcatraz.
    Mr. Grijalva. I have read those responses that you provided 
to the Speaker and to questions that came from officials in the 
port and some of the business interests around the port, and it 
leads back to the question about how fully satisfied the Park 
Service is with the services that is being provided there, and 
at least my visit there the whole discussion was the high level 
of dissatisfaction with that contract, the fact that there was 
not a lot of transparency to it and that the benchmarks in that 
contract are not being met, and yet not only do we continue to 
do business, we continue to extend opportunities to that 
company in other places.
    Mr. Wenk. I am not sure who you met with, Mr. Chairman, but 
my understanding is that the National Park Service and 
Hornblower are working very cooperatively to put together the 
required applications and approvals that we need to have in 
place with the Port Authority to get that in place as soon as 
we can.
    As part of the proposal process and the offers by all 
offerors, we did not have specific approvals for locations or 
places on the port because we knew that offerors may each have 
their own opportunities. In fact, we are moving right now from 
I think Pier 41 to Pier 31.5 to 33 in that area, and we are 
working with Hornblower to get those designs and approvals into 
all the authorities as quickly as we can.
    Mr. Grijalva. The Alcatraz landing is not part of the Park 
Service jurisdiction, right?
    Mr. Wenk. I believe that it is a lease arrangement.
    Mr. Grijalva. With the port?
    Mr. Wenk. With the port and the concessionaire.
    Mr. Grijalva. Let me before my last question, and I don't 
have any more follow-ups, let me just if there is no objection, 
without objection, enter into the record the statement of Mr. 
Louis Giraudo on behalf of the San Francisco Fishermen's Wharf 
Restaurant Association. He forwarded this to be part of the 
record.
    Hearing none. Thank you.
    [The statement submitted for the record by Mr. Giraudo 
follows:]

           Statement of Mr. Louis Giraudo, on Behalf of the 
         San Francisco Fisherman's Wharf Restaurant Association

    The Fisherman's Wharf Restaurant Association (``FWRA'') is 
compromised of twenty restaurants located on San Francisco's 
Fisherman's Wharf, all of which have been affected by the relocation of 
the Alcatraz Ferry Service. The FWRA has been and remains opposed to 
the National Park Service (``NPS'') allowing the relocation of the 
Alcatraz Ferry service from San Francisco Fisherman's Wharf to Pier 
31--approximately one mile away, The environmental and economic impact 
on the immediate area has been and continues to be significant.
    Approximately 1.4 million people who used to spend time on the 
Wharf while waiting to board the Ferry or after returning from Alcatraz 
no longer do so. They are now a mile away. If they come to the Wharf 
area, it is now, after disembarking and eating elsewhere, and then 
wandering to the Wharf for a look, but not a meal. Retail businesses in 
the Wharf area have also been detrimentally affected. The economic 
impact on the individual restaurants as well as other businesses is 
substantial and therefore the rent paid to the Port of San Francisco by 
those restaurant tenants is also affected. This move has created a 
substantial environmental and economic impact on the Wharf area.
    It is important to recognize that the Alcatraz Landing is not 
within a National Park where the NPS has exclusive jurisdiction. This 
facility is part of the Port of San Francisco where new development 
requires the cooperation of local authorities. The Association was 
never engaged in dialogue as to what if any effect such a move would 
have on the restaurants and the thousands of people that are dependent 
upon them for their livelihood.
    Hornblower Dining Yachts, the owner of Alcatraz Cruises, has had 
and still has the opportunity to take over the original site for the 
ferry service with the ability to fulfill its contractual obligations 
to the NPS. The Association has attempted for well over a year to 
mediate such a compromise but came to the realization that the contract 
granted by the NPS truly gives Hornblower the right to sit at Pier 31 
,provide a poor visitor experience, as tourists board tour boats from 
an empty parking lot layered with portable toilets. The contract allows 
for unlimited delay if there is local opposition to proposed plans for 
the new location. The NPS did not do its homework or perhaps it knew 
that the move would be detrimental to the area and therefore granted 
contract terms that allowed Hornblower to make millions of dollars 
while not performing the terms of the contract that made them the 
winners in the bid process. They are allowed to provide far less than 
the Wharf site provides and could provide while spending a minimal 
amount of money. The NPS allowed for such contractual terms knowing 
full well that Hornblower did not have the power or control to perform 
under the terms that made their proposal supposedly better than their 
competitors.
    In addition to the economic impact on the area, the environment has 
changed as well. Traffic patterns have changed and congestion has 
ensued.
    The Park Director told members of the Association that he was not 
opposed to relocating the service back to the Wharf. Fisherman's Wharfs 
rich history and tradition, has been and is an integral part of the 
Alcatraz experience. Relocating to Fisherman's Wharf, provides the 
space for the visitor center, and an enhanced visitor experience by 
virtue of the fact that the space would allow Hornblower the ability to 
fulfill all requirements of the underlying contract while not causing 
damage to the surrounding economic area or environmental surroundings. 
The Wharf was and is an appropriate window for the visitor experience.
                                 ______
                                 
    Mr. Grijalva. And last, is the Park Service satisfied with 
Hornblower's labor policies record?
    Mr. Wenk. Hornblower is required by contract to pay wages 
under the Service Contract Act. We are confident they are doing 
that. We are working with the Department of Labor to ensure 
compliance with that requirement of their contract.
    Mr. Grijalva. And the certainty about compliance is 
awaiting some response from the Department of Labor as I 
understand it.
    Mr. Wenk. We work with the Department of Labor, but 
Department of Labor has the enforcement responsibility on that.
    Mr. Grijalva. I don't have any additional questions other 
than the material that is submitted for the record.
    Mr. Bishop.
    Mr. Bishop. Mr. Wenk, thank you. Let me ask you a couple 
more questions. Let me go back to the visitation of the Statue 
of Liberty one more time.
    We have talked about I think some of the basic issues that 
are here. This is a safety, not a national security issue. Am I 
also right in assuming this is a safety issue and not a 
financial issue? It is not about the amount of money you are 
appropriated, but it is simply about the safety?
    Mr. Wenk. Correct.
    Mr. Bishop. OK. And am I also right in saying that you have 
talked about external structures going up to the statue, but 
the external structure to provide extra kinds of emergency 
egress opportunities, it would destroy the visibility of the 
statue itself if you were to try that?
    Mr. Wenk. We believe it is an unacceptable solution in 
terms of the visibility, the historic nature of the statue 
itself.
    Mr. Bishop. And we talked a long time here about waivers 
for allowing people to go up at their own risk. Once again, I 
am not an attorney in this situation, but to be honest, I just 
remember in the school system where we would have parents sign 
waivers for students to do this or that and they simply were 
not held up in court, that a waiver didn't mean squat actually. 
If somebody wanted to sue in our judicial system, they could 
sue right away whether there was a waiver or not. Is that a 
legitimate problem?
    Mr. Wenk. We believe the waivers that we have for our 
concessionaires are an acknowledgement of risk, not a waiver of 
rights.
    Mr. Bishop. All right. So it doesn't really solve your 
problem in some particular way.
    Do people coming to Liberty Island today feel cheated in 
their visit by not being able to go up, especially in contrast 
to prior 9/11 where people who were not able to be one of those 
first two boats expressed any kind of reservation and 
disappointment being cheated? Were they complaining about that 
prior to the closure?
    Mr. Wenk. I think the complaints by visitors today are the 
same as they were in 1999 or 2000, prior to the time that it 
was closed. Many visitors have historically heard about that 
opportunity. They would like to have that opportunity. But I 
believe, as I said previously, about 10 to 15 percent of the 
visitors to the island actually went to the crown prior to 
2001. Currently, only about 2,600 visitors who come to the 
island actually even have the ability to get into the pedestal.
    One of the things that we are going to work on is 
increasing the number of visitors that can get into the 
pedestal to have a richer experience while they are at Liberty 
Island.
    Mr. Bishop. I recognize the problem that you are facing in 
the situation that people will complain if they don't have 
access. People will complain if they get injured while they do 
have access. Maybe if we had a good liability lawsuit 
limitation law passed, we could work something out with you 
guys.
    Let me go back to the contract if I could. The contract 
process for the Liberty Island Ferry was somewhat drawn out. 
Was local congressional input sought and accepted during the 
negotiation process or the concession contract processing?
    Mr. Wenk. We have a process as prescribed pursuant to the 
1998 Concessions Act. That process is the process that we 
followed that evaluates the primary and secondary selection 
factors. Certainly in putting together the prospectus for this 
opportunity, we did hear from many members of the public, 
including Congress, in terms of what should be included in the 
contract.
    Mr. Bishop. So Hornblower getting the contract in the 
Liberty Island Ferry, you looked obviously at what happened in 
San Francisco, but that was not the sole criteria upon which 
you based your decision?
    Mr. Wenk. Absolutely not. They had demonstrated experience 
to operate these kind of facilities, and they scored highest on 
the five criteria, the five primary and I believe two secondary 
factors that we evaluated the contract on.
    Mr. Bishop. Maybe I could ask you or maybe Mr. Pendry, one 
or the other. Do you have any data as far as customer 
satisfaction in either place with Hornblower?
    Mr. Wenk. Actually, we do have customer satisfaction 
surveys that were done in San Francisco. I can get you the 
specific numbers, but my understanding is that it is a higher 
level of satisfaction today than it was with the previous 
contract at Alcatraz.
    Mr. Bishop. And this may be an unfair question to ask of 
you, but the Port of San Francisco, have they been cooperative 
or somewhat obstructionist in the ability of actually moving 
along with the Hornblower decision?
    Mr. Wenk. We will continue to work with the Port of San 
Francisco to make sure that we can implement the provisions of 
our contract, and we expect that we will be able to do that.
    Mr. Bishop. I thank you for your patience and being with us 
today. I don't think I have--I am out of time anyway.
    Mr. Grijalva. Thank you. Just, if I may, and certainly 
offer the opportunity to Mr. Bishop, one additional. The Golden 
Gate Recreation Area asked for additional time in order to 
complete a review of the modifications and the changes to the 
contract. Can you at this point give us a date certain when we 
can have the information regarding the modifications and the 
review, they wanted to extend the schedule?
    Mr. Wenk. At this time, I cannot give you the date certain, 
but I can certainly try to provide that for the record. I can 
provide a schedule that we currently believe that we can 
achieve for you for the record in terms of getting all the 
contract implemented.
    Mr. Grijalva. That would be appreciated. That is just a 
simple question for my own information. As we are talking about 
the modifications and the negotiations, the concessionaire, the 
Park Service, at what point is the port--we are talking about 
San Francisco--is the port involved in those negotiations since 
we are dealing primarily with much of their property?
    Mr. Wenk. I am not sure that I can answer that question. I 
don't believe Joe Pendry can answer that question specifically. 
It is our intention to work directly with the Port Authority 
and with Hornblower to make sure that we receive timely reviews 
and approval, well, timely submission on our part, reviews and 
approvals to get this in place as soon as we can.
    Mr. Grijalva. OK. Well, we will ask the same question to 
the representative of the port that is going to be with us 
next.
    If there are any other questions? Mr. Bishop? Mr. Weiner, 
any other questions for the gentleman?
    Sir, very appreciative. Thank you very much.
    Mr. Wenk. Thank you.
    Mr. Grijalva. Let me welcome our third panel and begin with 
Ms. Moyer, Executive Director, Port of San Francisco. Welcome, 
and thank you for being here. We look forward to your 
testimony.

  STATEMENT OF MONIQUE MOYER, EXECUTIVE DIRECTOR, PORT OF SAN 
                           FRANCISCO

    Ms. Moyer. Thank you and good morning, Chairman Grijalva, 
and Ranking Member Bishop and Honorable Members.
    My name is Monique Moyer. I am the Director of the Port of 
San Francisco. The port last appeared before Congress over a 
decade ago, and I have traveled a very long way to be here with 
you today. In fact, I note that my colleagues at both the 
Golden Gate National Recreation Area and at Hornblower are not 
present here today, which I find rather remarkable.
    But I have come here because there are issues in San 
Francisco. We need to prevail upon Congress to take another 
look at the 1998 Concessionaires Act to protect the interests 
of the stakeholders, as the Park Service refers to us, and 
there are policy questions that entail or require your 
consideration, and you have already mentioned some of the other 
testimony that has been presented in writing. I just want to 
note that the testimony comes not only from the Fishermen's 
Wharf Restaurant Association but also from the Inland Boatmen's 
Union, the Master, Mates and Pilots, and the Friends of the 
Earth, all related to the concession with Alcatraz.
    The Port of San Francisco has been honored to be the 
beginning and the end of the Alcatraz service for 34 years now. 
We control 7.5 miles of bayfront property. It is held in trust 
for the State of California, for the people of California.
    The contractor for the Alcatraz service does everything. 
They do the transportation, the maintenance, sewage and garbage 
removal, security and visitor-serving amenities. In return, the 
contractor collects almost 90 percent of the ticket revenues.
    As follows on some of your questions, the process for award 
and implementation has proved to be exclusionary and secretive, 
which seems to be contrary to what the 1998 Concessionaire Act 
required.
    The Alcatraz award has resulted in the Federal government 
choosing not only a new provider, which we support their 
ability to do so, but the selection of a new San Francisco 
landing site, the rejection of its cherished workers and ticket 
increase for diminished passenger experience.
    The Port of San Francisco, like New York, had great hopes 
when the Alcatraz service concession was awarded. That 
concession contract was two years in the making, so we thought 
it was going to be an exemplary contract and solicitation. We 
have an alignment of interests with the National Park Service 
and the Golden Gate National Recreation Area. Our mandate is to 
provide open space and visitor-serving amenities, just like the 
National Park Service.
    We are very excited that a homeboy made good in the case of 
Hornblower being selected. There was a bright future for 
environmental stewardship, and a skilled workforce with 
institutional knowledge was promised to be retained. We 
received great assurances of cooperation and inclusion from 
both the Park Service and the concessionaire.
    The Port of San Francisco also had grave concerns. The 
award is centered upon the development of our property, our 
proprietary interest. No due diligence was performed during the 
solicitation or after the award was made or in the negotiation 
of the contract. No discussions were held with the Port of San 
Francisco until one month following the signing of the 
contract.
    We also have concerns about the passenger experience from 
the launching point in San Francisco and the impacts to our 
neighbors and our merchants. The contract was negotiated and 
awarded in secrecy. The written testimony that the Port of San 
Francisco provided illustrates the schedule of decisions and 
exclusion of the port's proprietary interest.
    The policy decision to forego local freedoms with respect 
to property, the port's property, is of grave concern to us.
    I am running out of time, so I am going to circumvent to 
the end of my testimony, which is I urge you to implore upon 
the Park Service to show leadership. In San Francisco, there is 
a question of who is on first. When the port seeks advice, 
counsel and direction from the Park Service, we are pointed to 
the concessionaire, and when we seek the advice, counsel and 
ideas of the concessionaire, we are pointed to the Park 
Service.
    In return, the Superintendent continuously waives 
deadlines, and the implementation schedule is due to be long 
and protracted. I sincerely hope in the concession contract 
that is executed in New York the Superintendent will be 
empowered and obligated to adhere to all of the qualities of 
the award and, most importantly, to work with the Park 
Service's local partners, i.e. the local and state governments 
in which you operate. Thank you very much for your time.
    [The prepared statement of Ms. Moyer follows:]

            Statement of Monique Moyer, Executive Director, 
                         Port of San Francisco

    Chairman Grijalva and Honorable Subcommittee Members,
    Thank you for your invitation to address the Subcommittee today. 
The Port of San Francisco (``Port'') is a self-supporting agency of the 
City and County of San Francisco. It manages 7.5 miles of the San 
Francisco Bay waterfront in trust for the People of California. Our 
Port is home to our city's major tourism destinations at Fisherman's 
Wharf which attract more than 14-15 million visitors to the area from 
around our country and the world each year.
    Since 1973, our Port has been the gateway to Alcatraz Island 
National Park. The Port owns ferry and excursion berths that have been 
the launching point for 1.6 million visitors per year to Alcatraz 
Island. We control the property for the waterside and landing 
facilities used for this service by both the prior and the new 
concessionaires. Since 1997, the new concessionaire, Hornblower 
Cruises, has leased facilities for dining and charter boats at Pier 31 
1/2, a half mile south of Fisherman's Wharf.
    For the past 34 years, the Port of San Francisco has had 
significant property and economic interest in the Alcatraz Island ferry 
contract. Regrettably, the Port found itself on the sidelines as a 
spectator in the most recent competitive selection process conducted by 
the National Park Service (``NPS''). The solicitation request was 
issued in July 2004, without any discussion between NPS and the Port. 
In September 2005, the NPS announced selection of Hornblower Cruises 
(dba Alcatraz Cruises) as the new concessionaire and, by extension, the 
Port's Pier 31 1/2 as the new San Francisco launch point. In May 2006, 
the NPS and Hornblower executed the concession contract. Despite the 
reliance on Port property to launch the Alcatraz Island service, the 
first time the Port was shown the plans and aggressive implementation 
schedule was on June 12, 2006, one month after the contract became 
final.
    According to the conceptual designs presented at the June 12, 2006 
Port Commission meeting, Alcatraz Cruises proposed major physical 
alterations to Port property and new activities not authorized under 
its existing lease with the Port. Yet the concession contract had 
already been executed by the NPS without notice or consultation to the 
property owner, the Port of San Francisco.
    Specifically, the NPS contract with Alcatraz Cruises requires the 
following improvements to occur that are subject to Port approval:
    <bullet>  A covered waiting area for ticketed passengers;
    <bullet>  Periodic change out of interpretative exhibits;
    <bullet>  An educational bookstore and auditorium for special 
events; and
    <bullet>  Adequate restrooms for passengers, including ADA 
improvements.
    Such alterations are subject to Port approval, City Board of 
Supervisors' approval and, environmental review pursuant to state law. 
The San Francisco Port Commission acts in both a proprietary and 
regulatory capacity with respect to the public trust lands granted by 
California to the City and County of San Francisco. The Port has 
authority to enter into lease agreements for certain uses of these 
lands, subject to public hearings and action of the Port Commission 
and, for some issues, the Board of Supervisors.
    The Port's lease for Pier 31 1/2, the new Alcatraz Island departure 
point, is executed with Hornblower Cruises. It requires: 1) that new 
improvements or alterations to Port premises are approved by the Port 
Commission, 2) that this approval occur in advance of any required 
regulatory approval by any agency for such uses or improvements, and 3) 
that the lease is amended by the parties to authorize such new uses. 
Notably, the lease does not limit the tenant's obligation to obtain any 
required approvals from City departments, boards or commissions which 
have jurisdiction over the property, including, but not limited to, 
Port building permits, City Department of Planning environmental 
approvals and certain City Board of Supervisors approvals.
    As indicated by the limited information provided to date, some of 
the proposed visitor improvements require the use of additional Port 
property in an adjacent facility at Pier 33 that is leased and occupied 
by other Port tenants. Any acquisition of those leaseholds by 
Hornblower requires prior Port approval.
    Thus, Hornblower Cruises' ability to perform as proposed under the 
Alcatraz Island Concession Contract is predicated upon prior approvals 
by the Port of San Francisco and other public agencies. Incredibly, 16 
months after award of the contract, the Port's approval and permission 
for such alteration and use to its properties has still not been 
formally sought by either the NPS or Hornblower Cruises.
    After the selection was announced in September 2005, the Port and 
City of San Francisco informed Hornblower and the National Park Service 
of its leasing and permitting requirements.
    In December 2005, the San Francisco Board of Supervisors urged the 
NPS to commence an analysis of traffic impacts of the proposed 
relocation of the service to a different area of the San Francisco 
waterfront, resulting in 5,000 Alcatraz Island visitors per day (on 
peak days) commingling with activities such as cruise ship loading and 
unloading at an adjacent facility along the City's congested 
Embarcadero Roadway.
    In March 2006 and again in May 2006, the City and County of San 
Francisco requested that the NPS and Hornblower conduct environmental 
review before the commencement of the contract.
    In June, August and September of 2006, the Port and the City again 
requested environmental review, prior to the commencement of 
operations. Despite repeated requests to comply with local and state 
rules and regulations, in September 2006 the NPS launched interim 
Alcatraz Island ferry operations from Pier 31 1/2 under the contract 
without environmental review.
    Despite our attempts to get the NPS to understand the complexity of 
delivering the project as proposed in the solicitation process, the NPS 
proceeded to award the contract on May 9, 2006. The contract set forth 
an aggressive schedule for delivery of facilities that does not reflect 
the realities of the public review and lease approval process that the 
San Francisco Port Commission is required to adhere to. Under the 
contract, implementation of the plan for permanent facilities at our 
property at Pier 31 1/2 was required to start in February 2007.
    This deadline was missed. Hornblower finally provided the Port with 
a draft Landing Plan for the permanent facilities on September 7, 2007, 
16 months after the contract was executed. However, the Landing Plan is 
still only in draft form and is not significantly more developed than 
the prior conceptual plans presented to the Port Commission in June 
2006. Given the length of time required to complete environmental 
review, the Port believes it is unlikely that Hornblower will succeed 
in meeting the contract's April 2008 deadline for the required 
improvements. The NPS has repeatedly waived deadlines which have 
hampered the full implementation of service at this new location.
    In closing, the failure to properly consult with the Port prior to 
contract award, the refusal to perform environmental review after 
contract award and the unwillingness of the NPS to enforce contract 
deadlines has resulted in a diminished quality of service to Alcatraz 
Island visitors and strained relations with the City and County of San 
Francisco.
    As a public agency with its own open space and visitor-serving 
mandates, the Port of San Francisco has a natural affinity with the NPS 
and has always been delighted to partner with the Golden Gate National 
Recreation Area. We want to afford visitors to the City with the best 
experience possible and, to that end, should enjoy a partnership with 
the NPS.
    The National Park Service's procurement process for the Alcatraz 
Ferry Service in San Francisco shows that there are weaknesses in the 
process that need correction. On behalf of the Port and City of San 
Francisco, I respectfully urge Congress to encourage the NPS to make 
the following changes to its competitive solicitation process:
    1.  In instances where NPS does not fully own the underlying 
property pertaining to delivery of the concession, the NPS should 
institute formal procedures to consult with local government, other 
public agencies or private owners prior to launching the solicitation. 
Through this consultation, the NPS can identify issues that could 
affect the ability of the bidders to deliver the project within the 
time requirements. If this consultation had occurred in the Alcatraz 
Island Ferry Service Contract, the NPS could have avoided the delays 
they are facing and the NPS would not need to repeatedly exercise the 
``excusable delay'' clause of their contracts.
    2.  Prior to initiating contract solicitations, the NPS should 
conduct local workshops and invite local, regional or state agencies 
that may play a proprietary or regulatory role in approving contracts 
or related permits to comment on the contracting opportunity.
    3.  During contract review, selection and implementation, the NPS 
should maintain open lines of communication with affected local, 
regional and state agencies.
    4.  During the selection process, the NPS panel should conduct an 
independent evaluation of whether the bidder can deliver the proposed 
project under its lease and conform with environmental requirements. 
For example, in transportation grants, the Federal Highways and Transit 
Agency requires proof of right-of-way clearance and compliance with 
environmental review before federal monies are awarded.
    5.  To ensure greater control of excursion landings that are not on 
federal property, the NPS should evaluate maintaining leases directly 
with local or state agencies or private property owners, rather than 
relying on private operators, who may or may not have good 
relationships with public or private landlords, to secure those rights. 
In our case, if the Alcatraz Island departure point was leased by NPS, 
it could (1) ensure that the term of the lease is concurrent with the 
term of the concession and (2) offer the concession to qualified 
operators who do not control landing facilities. As it currently 
stands, the NPS was only able to accept bids from operators who leased 
property from the Port. Furthermore, Hornblower's lease with the Port 
of San Francisco has a shorter term than the concession contract. Such 
direct leasing between the NPS and land owners will help avert this 
scenario.
    I hope these experiences and suggestions provide some guidance to 
the Subcommittee. Thank you for your time and attention to this matter. 
The Port and City of San Francisco value our relationship with our 
federal partners and we look forward to a renewed accord.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me now turn to Ms. Salerno, 
President and Co-Founder, National Parks of New York Harbor 
Conservancy. Thank you.

STATEMENT OF MARIE SALERNO, PRESIDENT AND CO-FOUNDER, NATIONAL 
              PARKS OF NEW YORK HARBOR CONSERVANCY

    Ms. Salerno. Thank you, sir, and good morning, and thank 
you for inviting me to attend this morning's session.
    We are the partner of the National Park Service in New 
York, similar to the Statue of Liberty/Ellis Island Foundation 
that you mentioned before. We have a contract with the National 
Park Service.
    New York Harbor is a remarkable 771 miles of coastline 
dotted with city, state, national park lands full of rich 
history, cultural and natural splendor, a place that is ranked 
among the great wonders of the world. Today, it is poised for 
the first time in a generation to realize its potential as a 
national park.
    In the 19th Century, Herman Melville wrote in the opening 
pages of Moby Dick, ``All Manhattan streets led waterward and 
the shore was filled with dreamers staring out to the sea.'' 
Later, New York turned its back on its harbor, ringing it with 
highways, parking lots and housing projects. Ordinary New 
Yorkers lost their access to the water and even the sense that 
the water was there.
    The concept of an urban national park on this harbor first 
emerged 30 years ago when Marian S. Heiskell, our Chairman, and 
other farsighted New Yorkers secured the transfer of a unique 
amalgam of sandy beaches, secluded inlets and grasslands, 
historic forts, military bases and airfields on New York Harbor 
to the National Park Service, saving them from development.
    In 1972, Congress ratified the transfer by creating Gateway 
National Recreation Area, America's first urban national park. 
Gateway's founders wisely wanted just one more thing--Federal 
funds to finance public transportation links to these places. 
That was where Congress, however, drew the line. It was not 
until this decade that the National Park Service integrated 
Gateway with the 22 other national park lands in and around the 
harbor, including the Statue of Liberty and Ellis Island, 
designating this new constellation as the National Parks of New 
York Harbor.
    In 2001, the private sector, led again by Mrs. Heiskell and 
joined by David Rockefeller, Jr., the National Park Foundation 
and me were invited by the National Park Service to harness the 
energy of the community and provide a collective vision for 
these disparate places. We ultimately founded the National 
Parks of New York Harbor Conservancy, a 501[c][3].
    The prospect was daunting, but the potential was awesome. 
Most do not know that the National Park Service is the largest 
landholder, public or private, on the waterfront. Last year 
Mayor Bloomberg envisioned a Harbor District, a new tourist 
destination on the inner harbor, a consortium of nonexisting 
parks and new parks in development in both New York and New 
Jersey. But there is one big problem. You can't get from one to 
the other.
    What does this mean for today's hearing? These national 
parks host 20 million visitors annually, 2.5 million of whom 
visit the Statue of Liberty. For Gateway National Recreation 
Area to realize its potential, its full potential, and Harbor 
District to realize its full potential, these 4 million 
visitors should be afforded the opportunity to make the Statue 
of Liberty not merely a final destination but their gateway to 
the other harbor parks and destinations.
    We are pleased that a new contract between the National 
Park Service and Hornblower Yachts finally calls for looking at 
additional ferry routes on the harbor. Hornblower wisely 
included Governor's Island as a stop on their new island tour. 
So for the first time, the visitor would be able to experience 
two jewels on the harbor in the course of one trip. Hornblower 
is to be commended for their progressive vision, and we are 
hopeful that new ferry routes will follow this all-important 
step.
    In the two harbor tours that our conservancy has launched, 
we have already demonstrated an untapped market for tourism 
that goes well beyond the harbor's signature destinations. 
Today, beyond tours to the statue, another 1 million visitors 
are going on our tours and on other harbor excursions. However, 
only one of the national park sites actually has a dock to 
welcome these potential visitors.
    Today, with the leadership of the National Park Service and 
other partners, we are working to restore the harbor to the 
people and create the finest urban waterfront park system in 
the world and more importantly, with the support of our elected 
officials and this committee, to create a transportation 
network to help you get there. Thank you.
    [The prepared statement of Ms. Salerno follows:]

          Statement of Marie Salerno, President & Co-Founder, 
             National Parks of New York Harbor Conservancy

                  The Once and Future New York Harbor

    New York Harbor is a remarkable 771 miles of coastline dotted with 
city, state and national parklands full of rich history, culture and 
natural splendor, a place that is ranked among the great wonders of the 
world. Today, it is poised for the first time in a generation, to 
realize its potential as a national park.
    America begins in New York and New York begins on the Harbor. From 
the time of the first explorers, to successive waves of immigrants, to 
shipmasters and pleasure-boaters, it is the link that first attracted 
settlers to the new world and propelled the city's growth into the 
nation's most populous, most vibrant city.
    In the 19th century, Herman Melville wrote in the opening pages of 
Moby Dick, all Manhattan streets led water ward, and the shore was 
filled with dreamers staring out to sea on a Sunday afternoon. Later, 
New York turned its back on the harbor, ringing it with highways, 
parking lots and housing projects, as Broadway eclipsed Riverside 
Drive. Ordinary New Yorkers lost their access to the water and even the 
sense that the water was there. They hardly knew they lived on an 
archipelago.
    But there remained people--visionaries--who saw that New York 
Harbor was still one of the world's great natural seaports. Marian S. 
Heiskell, the chairman of the National Parks of New York Harbor 
Conservancy, was an early pioneer.
    The concept of an urban national park first emerged thirty years 
ago when Mrs. Heiskell and other farsighted New Yorkers, including 
Mayor John V. Lindsay and New York Congressman William Fitts Ryan, 
secured the transfer of a unique amalgam of sandy beaches, secluded 
inlets and grasslands, wildlife refuges and forests, camping and 
playing fields, historic forts, military bases and airfields on New 
York Harbor to the National Park Service, saving them from development 
and placing them under the protection of the federal government. In 
1972, Congress ratified the transfer by creating Gateway National 
Recreation Area.
    The vision for Gateway was to bring a national park experience to 
city dwellers, to those who were not afforded the opportunity to go 
camping in Yosemite or Yellowstone or snorkel in the great coral reefs 
of the Virgin Islands.
    Gateway's founders wisely wanted just one thing more: federal funds 
to finance public transportation links to the park. That was where 
Congress drew the line, however. And perhaps that is why, in part, 
Gateway has still not realized its full potential.
    It was not until this decade that other visionaries stepped forward 
invited by the National Park Service, which integrated Gateway with 
other 22 other national parklands in and around the harbor, including 
landmarks like the Statue of Liberty and Ellis Island, designating this 
new constellation as the ``National Parks of New York Harbor.'' The 
National Park Service invested $3.0 million towards its launch 
including imaginative new icons to unite its family of parks. [See 
attached.]
    In 2001, the private sector, led again by Mrs. Heiskell and joined 
by me, David Rockefeller Jr., whose family for more than 100 years has 
been in the forefront of preserving public land for the American 
people, and the Congressionally-chartered National Park Foundation, 
were asked to harness the energy of the community and provide a 
collective vision for these disparate places. We ultimately founded a 
new non-profit entity, the National Parks of New York Harbor 
Conservancy.
    In New York, there had been no private citizen voice to speak for 
these unheralded parklands. There had been no outreach to connect these 
parklands, or, for that matter, those administered by other 
jurisdictions. There had been no unified, powerful, accessible and 
attainable vision for the future of all our parklands to inspire and 
guide a new era of stewardship, conservation, respect and understanding 
of our heritage.
    The prospect was indeed daunting. But, the potential was awe-
inspiring. We accepted the challenge. With initial funding from the 
Rockefeller Brothers Fund and The New York Times Company Foundation, we 
began to spearhead an innovative portfolio of programs, projects and 
activities to help these parks shine and to make them more accessible.
    With 26,000 acres, the National Park Service is the largest 
landholder, public or private, on the waterfront, hosting approximately 
20 million visitors annually--four million of whom visit the Statue of 
Liberty and Ellis Island.
    Lower Manhattan is the epicenter of its network of harbor parks, 
historic sites and recreation areas that arc across three other 
boroughs of the city--Queens, Brooklyn and Staten Island--and across to 
New Jersey on both the Upper and Lower Bays of the harbor. [See 
attached map.]
    Last year, Mayor Bloomberg envisioned ``Harbor District,'' a new 
tourist destination on the inner harbor. Our Harbor Conservancy is a 
member of the Harbor District Advisory Board. It is consortium of 
existing parks such as Statue of Liberty, Ellis Island, Liberty State 
Park and Battery Park, and new parks in development, including Hudson 
River Park, Brooklyn Bridge Park, and Governors Island, for 200 years-
off limits to the public and recently transferred to the State and City 
of New York with the National Park Service having jurisdiction over 26 
acres.
    But, you can't get from one to the other. Beyond the National Park 
Service trip to the Statue or Ellis, the natural asset that touches 
each park--the harbor itself--has been a barrier rather than a seamless 
transportation artery.
    What does this mean for today's hearing on the ``Management of the 
Statue of Liberty?''
    For all the National Parks of New York Harbor, especially Gateway 
and the city's new proposed Harbor District to realize their full 
potential, the four million annual visitors should be afforded the 
opportunity to make the Statue of Liberty not merely a final 
destination but their gateway to the other harbor parks and 
destinations.
    With private funding and in partnership with Gateway, our Harbor 
Conservancy has commissioned an actionable transportation plan. There 
is no doubt it will propose specific routes via the expansion of 
transportation services to Statue of Liberty, especially from there to 
Gateway, and will further define the Statue's vital role in any overall 
vision for harbor transportation.
    We are very pleased that the new contract between the National Park 
Service and Hornblower Yachts finally calls for looking at additional 
ferry routes in the Harbor. Hornblower also included Governors Island 
as a stop on their new island tour to Statue and Ellis Islands. So, for 
the first time, a visitor will experience two jewels on the harbor in 
the course of one trip.
    For the first time in a generation, a ferry operator stands ready--
in all ways possible--to help link national parks into a seamless 
necklace, a viable harbor-wide transportation system including 
neighboring parks in all five boroughs. He does so as a new New Yorker 
and as a good citizen involved in the life of our great international 
city and its harbor for the future benefit and enjoyment of residents 
and visitors alike.
    With the National Parks of New York Harbor, the Harbor Conservancy 
inaugurated a harbor visitor center at Federal Hall and since last year 
thousands have visited the site. In two harbor tours that the Harbor 
Conservancy itself launched, we've already demonstrated that there is a 
market for tourism that goes well beyond the harbor's signature 
destinations. For three years, our Gateway to America harbor tour has 
run seven times daily telling the stories of the historic, cultural and 
urban estuary. Our military history tour relates the complete and 
untold story of harbor defense, from the Battery where the Dutch 
originated homeland security nearly 400 years ago, to a New York 
attacked and held hostage until the end of the Revolutionary War, to a 
city that was never attacked again until September 11.
    We can already measure our success, not just by revenue to the 
ferry operator and to the Harbor Conservancy, but also by our ability 
to interpret these places and share their stories, stories that help 
visitors to experience the history of our great nation where it began.
    Beyond tourists to the Statue, another one million visitors are 
going on our tours and on other harbor excursions. A generous gift of 
$1.0 million from Tiffany & Co. Foundation will enable us to produce, 
among other programs, two new harbor tour excursions.
    However, only one of the National Park sites has docks to welcome 
these potential visitors.
    Last weekend I traveled by ferry past the Statue of Liberty and 
Ellis Island and to sites that may be less well known to the members of 
this committee, but equally steeped in history.
    Experiencing the majesty of the harbor from the Lower Bay, passing 
under the Verrazano Bridge past the parks of Gateway National 
Recreation Area in Queens, Brooklyn, Staten Island and New Jersey, we 
strain for adjectives to describe the natural history of New York 
Harbor that ordained its destiny.
    With ferries shuttling back and forth, we now are now afforded a 
rare opportunity, to finally access these places and at the same time 
help reconcile the yearnings for a national park experience that will 
enrich the lives of all Americans, reminding them that these parks 
belong to them and illuminate and celebrate human achievement.
    Our promise is to make the Arrowhead--the symbol for the greatest 
and most enduring conservation movement the modern world has known--and 
the National Park Service Ranger as recognized on the harbor as they 
are on the trails of Yosemite.
    Today, with the leadership of the National Park Service, and other 
harbor partners, we are working to restore the harbor to the people to 
create the finest urban waterfront park system in the world and then to 
help get you there.
National Parks of New York Harbor Icons

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                __
                                 
    Mr. Grijalva. Thank you very much.
    If I may, Ms. Salerno, the organization, the conservancy, 
was there involvement on the part of the organization, 
yourself, in the process of selecting the new concessionaire 
that we are speaking about today?
    Ms. Salerno. No.
    Mr. Grijalva. Pardon?
    Ms. Salerno. No, there was not.
    Mr. Grijalva. Do you feel that that would have been an 
appropriate input for the organization or not?
    Ms. Salerno. The regulations and the rules of the National 
Park Service you probably know much better than I do. I think 
it was inappropriate for them legally to ask our counsel. We 
did weigh in with the City of New York with many suggestions 
and recommendations.
    Mr. Grijalva. Thank you.
    Ms. Moyer, going back to a point I didn't make well when 
the Deputy Director was here, and that had to do with in 
correspondence to the Speaker, National Park Service stated--
that was in June--stated that they expected Hornblower to start 
doing a much better job in working with the port regarding its 
plans, modifications of those plans. It is mid-September now, 
and has that cooperation improved or occurred?
    Ms. Moyer. Mr. Chair, I would characterize the level of 
cooperation as consistent with what it has been since the 
announcement was made in September of 2005. Tidbits of 
information are being distributed to the port in what I would 
not characterize as a timely manner.
    On September 6, presumably in anticipation of this hearing, 
the port was finally given a document called ``The San 
Francisco Landing Plan,'' which is nothing more than an outline 
over seven pages saying things like what the schedule would be 
and who the stakeholders are. There are some maps attached to 
it that are illegible, and we cannot tell from that what the 
intent is with our property.
    Again, I think it is difficult for the port and our tenant, 
Hornblower has been a tenant of the port, a very good tenant of 
the port for some time, and there is this third party between 
us now, the Park Service, and again, there doesn't seem to be 
leadership or direction coming from either of those entities on 
how to close a deal with the port or any of the other 
stakeholders for that matter.
    Mr. Grijalva. Yes. And I have referenced a question to the 
other witness. As Hornblower is going through the process of 
being awarded the contract in New York for the Statue of 
Liberty and the other stops along the way, to your knowledge, 
the port or the City of San Francisco, did you receive any 
inquiries by the Park Service regarding what track record or 
lack of track record you might have with that concessionaire?
    Ms. Moyer. We did not. The only information that we have to 
this date is the actual contract itself despite our repeated 
requests for information with respect to the other proposals. 
To my knowledge, there were four proposals from three 
respondents. All three respondents controlled, had a leasehold 
interest at different locations at the San Francisco 
Waterfront. That is one of the problems, I think, of the Park 
Service process that I would look to Congress to rectify.
    In discussions with the Park Service subsequent to the 
process, they acknowledged that their process does not allow 
for the situation in which there is a third party property 
owner or private property owner.
    In response to a question about cooperation, we have 
offered to lease directly to the Park Service because right now 
the lease of any of the respondents is shorter than the 
concession, and this would allow there to be continuity of the 
service. We could write a long-term lease with the Park Service 
or the GSA, and then the process when it is next bid could be 
open to all providers, which seems to be in the spirit of the 
1998 Act.
    Mr. Grijalva. Yes. The question is, in reviewing and 
awarding the contract in New York, were there any inquiries to 
the City of San Francisco or the port regarding your experience 
and track record with Hornblower?
    Ms. Moyer. I apologize. I thought you were talking about 
the Alcatraz award. None to my knowledge, to either the mayor 
or myself or the Congresswoman's office.
    Mr. Grijalva. In some of the correspondence I received, one 
of the great selling points in San Francisco was the 
environmental agenda for the concessionaire. Can you briefly 
talk about compliance with those points that were such a big 
part of the award and touted as really being cutting-edge kind 
of commitments on the part of the concessionaire? Can you 
comment on the compliance to that environmental agenda or 
points that were made in that contract?
    Ms. Moyer. Well, again, no hard and fast information has 
been made available to us. It appears that the compliance has 
been delayed. The Park Service and the concessionaire have said 
that they are in contract for a solar ferry, but no evidence of 
that has been provided. And there was some testimony from 
Deputy Director Wenk with respect to the enhancements to the 
existing ferries, and those enhancements have not been fully 
activated. In fact, the concessionaire purchased some of the 
prior operator's boats and are operating those as well, and to 
my knowledge, they have not been cleaned, if you will.
    Mr. Grijalva. Thank you. I don't have any more questions. 
Mr. Bishop.
    Mr. Bishop. Thank you both for coming here. Ms. Salerno, I 
appreciate your efforts to be here and your testimony. What 
would you recommend be the first additional ferry site added in 
New York Harbor if there was an expansion of the site travel?
    Ms. Salerno. For us, it would be Gateway National 
Recreation Area. For the City of New York, it would certainly 
be Governor's Island or any of the eight other new sites that 
they are putting onto the water.
    Mr. Bishop. OK. We have talked before about Statue of 
Liberty receiving 2 million fewer visitors than it did prior to 
9/11, or as the city visitorship was up, which I still think 
was because of the Yankees, but that is beside the point, what 
action----
    Ms. Salerno. I would say the Mets.
    Mr. Bishop. OK. You just lost anything else you wanted in 
this hearing. What action is your organization taking with the 
Park Service to invite those visitors back?
    Ms. Salerno. We have embarked on an enormous campaign to do 
public projects, programs and activities to encourage folks to 
get onto New York Harbor. We envision that New York Harbor is 
our stage. It is a stage the folks have not visited in a very 
long while. The Statue of Liberty of course is one of the 
premier sites in the world, if not in New York, and a top 
tourist destination.
    However, most New Yorkers will say to you, ``I haven't been 
there since I was a child.'' So one of the things that we would 
like to do through the collective of all of the parks of the 
national parks of New York Harbor is to create experiences that 
link these parks together, and we have invested at this point 
close to $5 million in programs to support the parks. Next year 
we will be putting rangers, National Park Service rangers on 
the water for the first time in the history of these parks, and 
we have received funds from private donors to work with us to 
create other programs that will help New York Harbor and these 
parks shine.
    Mr. Bishop. Thank you. I am excited about those kind of 
opportunities you are expanding. In your verbal testimony, you 
called the new concessionaire Hornblower, they had a 
progressive vision. How will this new concession contract 
benefit visitors to New York, especially to these harbor sites?
    Ms. Salerno. We are hopeful that this is a new day for New 
York Harbor, and Hornblower as a new citizen to the City of New 
York has a responsibility to the city and to our national parks 
to make sure that they are accessible. We are hopeful that he 
will take every opportunity to make sure that from the Statue 
of Liberty and Ellis Island there will be other places that you 
can embark from those places to get to new sites on the water.
    Mr. Bishop. Thank you. I appreciate your testimony and your 
time with us here.
    Ms. Salerno. Thank you.
    Mr. Bishop. No, one more question, Ms. Salerno. Apparently 
the Speaker's office was involved in the San Francisco decision 
in some way or at least had contact. Has your organization done 
any contact with the Speaker's office here about the awarding 
of this concession?
    Ms. Salerno. No, sir.
    Mr. Bishop. OK. Ms. Moyer, once again, I appreciate you 
coming back all this distance to be here as well. I agree with 
your comments that the Golden Gate National Recreation Area and 
Hornblower should be here represented. Unfortunately, unlike 
legislative bodies where private citizens get a chance to 
actually come in and talk to people, this is one by invitation 
only, and that invitation was not extended to them. Perhaps at 
some other time we could actually do that particular thing.
    The Park Service talked about their customer satisfaction, 
which they said had been positive. Do you dispute that 
testimony at all?
    Ms. Moyer. I have not been privy to any of the satisfaction 
reports and/or surveys. I don't frankly know what the questions 
are. I do get comments from local people who are not as 
satisfied. They find the fact that there are very few amenities 
at the location to be disillusioning. For instance, you are 
required to use a port-a-potty. You can get coffee and a bagel, 
but that is about it.
    Mr. Bishop. We don't blame you or actually staff or even 
the Chairman. One of the problems we have in the hearing 
process just the way we do things in Congress is the inability 
of having a good dialogue, and I think if we had Mr. Wenk back 
here again, coming back after your presentation, it would be a 
wonderful opportunity to try and increase that type of 
dialogue. That goes for the two of us that are actually here.
    You mentioned in your testimony the retention of cherished 
employees. Who are those cherished employees?
    Ms. Moyer. It was our understanding that when the contract 
was awarded to Hornblower, the employees that had been 
servicing the island for a decade or two would transfer over to 
Hornblower and that the best efforts would be made to retain 
those employees with the knowledge not only of the island but 
certainly of the conditions in the bay. And we are particularly 
concerned with the removal of sewage from the island and its 
disposal upon our property.
    Mr. Bishop. Is that why they are considered cherished 
employees?
    Ms. Moyer. I don't think I put such an emphasis on 
``cherished,'' but I certainly----
    Mr. Bishop. It is your adjective.
    Ms. Moyer. My apologies then. As you may know, the ferry 
boats are operated by skeletal crews, and we certainly want to 
know that they are experienced.
    Mr. Bishop. Thank you. I don't really have any other 
questions.
    Mr. Grijalva. Thank you, Mr. Bishop, and thank you to the 
witnesses.
    We will be forwarding some questions to the National Park 
Service relative to the contract, and primarily dealing with 
the aspect of the ongoing issue in San Francisco. And the 
reason for those questions, as you mentioned, you are hopeful, 
Ms. Salerno, that it is a new day and that this concessionaire 
will live up to its commitments. Given the experience in San 
Francisco, we want to make sure that that does occur.
    One of the questions that I think will be important 
concerns some of the contractual issues with the National Park 
Service. Basically, some of the terms almost give noncompliance 
to parts of the contract for an indefinite period. There is no 
end to when that noncompliance is remedied or not. We need to 
look a little bit into the revenues and the profits of the 
concessionaire, and other questions that this hearing has 
provoked. We will forward that and certainly have the Committee 
review the same information. So we will be forwarding 
additional questions.
    I appreciate your being here. Thank you very much. The 
meeting is adjourned.
    Ms. Salerno. Thank you.
    [Whereupon, at 12:30 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
